<html>
<title> - BIG RELIEF FOR SMALL BUSINESS: LEGISLATION REDUCING REGULATORY BURDENS ON SMALL MANUFACTURERS AND OTHER JOB CREATORS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





BIG RELIEF FOR SMALL BUSINESS: LEGISLATION REDUCING REGULATORY BURDENS 
             ON SMALL MANUFACTURERS AND OTHER JOB CREATORS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

                           Serial No. 115-54




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-152 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 _____

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     4
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Richard Hudson, a Representative in Congress from the State 
  of North Carolina, opening statement...........................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Frank Moore, President, Hardy Manufacturing Company, Inc.........    12
    Prepared statement...........................................    14
Ryan L. Parker, President and Chief Executive Officer, Endicott 
  Clay Products Company..........................................    29
    Prepared statement...........................................    32
Alexandra E. Teitz, Principal, AT Strategies, LLC, on behalf of 
  the Sierra Club................................................    37
    Prepared statement...........................................    39
Vincent Brisini, Director of Environmental Affairs, Olympus 
  Power, LLC, on behalf of the Anthracite Region Independent 
  Power Producers Association....................................    62
    Prepared statement...........................................    64
Rebecca Bascom, M.D., Professor, Penn State College of Medicine, 
  on behalf of the American Thoracic Society.....................    75
    Prepared statement...........................................    77
Steve Page, President and General Manager, Sonoma Raceway........    85
    Prepared statement...........................................    87
    Answers to submitted questions...............................   182

                           Submitted Material

H.R. 350, the Recognizing the Protection of Motorsports Act of 
  2017...........................................................   117
H.R. 453, the Relief from New Source Performance Standards Act of 
  2017...........................................................   120
H.R. 1119, the Satisfying Energy Needs and Saving the Environment 
  (SENSE) Act....................................................   122
H.R. 1917, the Blocking Regulatory Interference from Closing 
  Kilns (BRICK) Act of 2017......................................   132
Letter of September 12, 2017, from Jon Marshall, Innovation 
  Performance Technologies, to Mr. Hudson, submitted by Mr. 
  Hudson.........................................................   135
Letter of September 13, 2017, from Rachel Feinstein, Manager--
  Government Affairs, Hearth, Patio & Barbecue Association, to 
  Mr. Walden et al., submitted by Mr. Shimkus....................   136
Letter of September 11, 2017, from the American Motorcyclist 
  Association, et al., to Mr. Shimkus and Mr. Tonko, submitted by 
  Mr. Shimkus....................................................   138
Letter of September 11, 2017, from Ann Wilson, Senior Vice 
  President, Government Affairs, Motor & Equipment Manufacturers 
  Association, to Mr. Shimkus and Mr. Tonko, submitted by Mr. 
  Shimkus........................................................   140
Letter of September 11, 2017, from Andy McAllister, Regional 
  Coordinator, Western Pennsylvania Coalition for Abandoned Mine 
  Reclamation, to Hon. Keith J. Rothfus, submitted by Mr. Shimkus   142
Letter of September 11, 2017, from Robert E. Hughes, Executive 
  Director, Eastern Pennsylvania Coalition for Abandoned Mine 
  Reclamation, to Hon. Keith J. Rothfus, submitted by Mr. Shimkus   144
Statement of Davis Henry, President, Henry Brick, September 13, 
  2017, submitted by Mr. Shimkus.................................   145
Statement of Scott Pruitt, Administrator, Environmental 
  Protection Agency, September 13, 2017, submitted by Mr. Shimkus   148
Statement of Hon. Keith J. Rothfus, a Representative in Congress 
  from the Commonwealth of Pennsylvania, September 13, 2016, 
  submitted by Mr. Shimkus.......................................   151
Letter of April 1, 2016, from Nancy L. Seidman, Chair, Mobile 
  Sources and Fuels Committee, National Association of Clean Air 
  Agencies, to Gina McCarthy, Administrator, Environmental 
  Protection Agency, and Mark R. Rosekind, Administrator, 
  Department of Transportation, submitted by Mr. Tonko...........   153
Analysis by the American Council for an Energy-Efficient Economy, 
  et al., April 1, 2016, submitted by Mr. Tonko..................   156
Statement of the International Council on Clean Transportation by 
  Drew Kodjak, Executive Director, March 31, 2016, submitted by 
  Mr. Tonko......................................................   171
Statement of the Manufacturers of Emission Controls Association 
  by Dr. Rasto Brezny, Executive Director, March 30, 2016, 
  submitted by Mr. Tonko.........................................   174
Letter of March 31, 2016, from Arthur N. Marin, Executive 
  Director, Northeast States for Coordinated Air Use Management, 
  to Gina McCarthy, Administrator, Environmental Protection 
  Agency, and Mark R. Rosekind, Administrator, Department of 
  Transportation, submitted by Mr. Tonko.........................   176
Letter of September 12, 2017, from the Center for Biological 
  Diversity, et al., on H.R. 1917, submitted by Mr. Tonko........   178
Letter of September 12, 2017, from the Center for Biological 
  Diversity, et al., on H.R. 1119, submitted by Mr. Tonko........   180

 
BIG RELIEF FOR SMALL BUSINESS: LEGISLATION REDUCING REGULATORY BURDENS 
             ON SMALL MANUFACTURERS AND OTHER JOB CREATORS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Blackburn, Harper, Olson, Johnson, Hudson, Cramer, Walberg, 
Carter, Walden (ex officio), Tonko, Ruiz, Peters, McNerney, 
Cardenas, Dingell, and Pallone (ex officio).
    Staff present: Ray Baum, Staff Director; Elena Brennan, 
Legislative Clerk, Energy/Environment; Chuck Flint, Policy 
Coordinator, Communications and Technology; Tom Hassenboehler, 
Chief Counsel, Energy/Environment; Jordan Haverly, Policy 
Coordinator, Environment; A.T. Johnson, Senior Policy Advisor, 
Energy; Bijan Koohmaraie, Counsel, Digital Commerce and 
Consumer Protection; Ben Lieberman, Senior Counsel, Energy; 
Mary Martin, Deputy Chief Counsel, Energy/Environment; Drew 
McDowell, Executive Assistant; Alex Miller, Video Production 
Aide and Press Assistant; Dan Schneider, Press Secretary; Sam 
Spector, Policy Coordinator, Oversight and Investigations; Andy 
Zach, Senior Professional Staff Member, Environment; Jeff 
Carroll, Minority Staff Director; Jean Fruci, Minority Policy 
Advisor, Energy/Environment; Caitlin Haberman, Minority 
Professional Staff Member; Rick Kessler, Minority Senior 
Advisor and Staff Director, Energy/Environment; Alexander 
Ratner, Minority Policy Analyst; Andrew Souvall, Minority 
Director of Communications, Member Services, and Outreach; and 
C.J. Young, Minority Press Secretary.
    Mr. Shimkus. The Subcommittee on Environment will now come 
to order.
    The Chair now recognizes himself for 5 minutes for an 
opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    This morning, we will continue our subcommittee's oversight 
of the Clean Air Act. And while we usually focus our attention 
on major rules with multibillion-dollar impacts, today we will 
look at four EPA rules and policies that are far from major but 
are of great concern to small businesses dominating sectors 
affected by them. We will consider bills that make targeted 
changes to these policies so as to preserve jobs and investment 
in affected businesses and communities.
    We welcome our business-owner witnesses who have come from 
considerable distances to be here today, as well as our other 
witnesses, in what I hope will be a productive hearing.
    Two of the bills deal with small business manufacturers. 
Both the brick industry and the wood-heaters industry are 
comprised of companies that are downright tiny compared to GM 
or an Apple, but the well-paying jobs they provide often make 
them an important contributor to local economies where they are 
located. Unfortunately, both these sectors are struggling under 
the weight of costly EPA rules with tight deadlines.
    H.R. 1917, the BRICK Act, would provide much-needed 
additional time for brick makers to comply with EPA's new 
requirements while also assuring that they won't be forced to 
comply with standards that are later thrown out by a Federal 
court, as has happened to this industry in the past. I thank my 
good friend Bill Johnson for taking the lead on this bipartisan 
effort.
    H.R. 453 is another bipartisan bill that would provide 
similar relief from a EPA rule impacting wood heaters, giving 
manufacturers 3 more years to comply to meet the second phase 
of EPA's latest requirements.
    H.R. 1119, the SENSE Act, addresses facilities that take 
environmentally damaging coal refuse and turn it into 
electricity and harmless ash. That ash can be used to remediate 
the sites formerly contaminated by coal refuse piles. As with 
many of the businesses we will discuss today, these coal-
refuse-to-energy plants not only provide direct jobs but also 
are an indirect source of employment in struggling communities.
    Unfortunately, EPA lumps these waste treatment facilities 
in with traditional coal-fired power plants and has imposed 
requirements that are not achievable for many of them. The 
SENSE Act would make targeted changes to two regulations to 
establish emission reduction targets that are appropriate and 
achievable for this specialized technology.
    Finally, H.R. 350, the RPM Act, seeks to clarify 
longstanding policy vehicles modified exclusively for 
competition on racetracks. Thousands of amateur racing 
enthusiasts support a wide range of large and small businesses, 
from the component manufacturers and retailers to racetrack 
operators to garages that service these specialized racing 
vehicles.
    Never in the 47-year history of the Clean Air Act has the 
Agency enforced the anti-tampering provisions against vehicles 
that are taken off public roads and driven exclusively on 
raceways, but in 2015 the Agency inserted language into an 
unrelated proposed rule suggesting a change in the policy.
    While the EPA later retracted that language, it did so in a 
manner that left unclear the legal status of the owners of 
these cars and motorcycles, as well as the businesses that 
serve them. The RPM Act would remove that cloud and make clear 
the Agency's hand-off policy is indeed the law.
    We welcome constructive input on these bills, but time is 
of the essence. The next wood-heater deadline takes place in 
2020. The coal-refuse-to-energy deadline is 2019. And the brick 
deadline is 2018. This is a very short window for small 
businesses to line up financing to undertake the required work, 
assuming they can afford to do it at all. That is why I support 
action to enact these bills as soon as possible.
    And I thank you for listening to my opening statement.
    [The legislation appears at the conclusion of the hearing. 
The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    This morning we will continue our subcommittee's oversight 
of the Clean Air Act, and while we usually focus our attention 
on major rules with multibillion-dollar impacts, today we will 
look at four EPA rules and policies that are far from major but 
are of great concern to the small business-dominated sectors 
affected by them. And we will consider bills that make targeted 
changes to these polices so as to preserve jobs and investment 
in affected businesses and communities. We welcome our 
business-owner witnesses who have come from considerable 
distances to be here today as well as our other witnesses in 
what I hope will be a productive hearing.
    Two of the bills deal with small business manufacturers. 
Both the brick industry and the wood heaters industry are 
comprised of companies that are downright tiny compared to a GM 
or an Apple, but the well-paying jobs they provide often make 
them an important contributor to the local economies where they 
are located. Unfortunately, both of these sectors are 
struggling under the weight of costly EPA rules with tight 
deadlines. H.R. 1917, The BRICK Act, would provide much-needed 
additional time for brick makers to comply with EPA's new 
requirements, while also assuring that they won't be forced to 
comply with standards that are later thrown out by a Federal 
court--as happened to this industry in the past. I thank my 
good friend Bill Johnson for taking the lead on this bipartisan 
effort. H.R. 453 is another bipartisan bill that would provide 
similar relief from an EPA rule impacting wood heaters, giving 
manufacturers 3 more years to meet the second phase of EPA's 
latest requirements.
    H.R. 1119, the SENSE Act, addresses facilities that take 
environmentally damaging coal refuse and turn it into 
electricity and harmless ash. That ash can then be used to 
remediate the sites formerly contaminated by coal refuse piles. 
As with many of the businesses we will discuss today, these 
coal-refuse-to-energy plants not only provide direct jobs but 
also are an indirect source of employment in struggling 
communities. Unfortunately, EPA lumps in these waste treatment 
facilities with traditional coal-fired power plants and has 
imposed requirements that are not achievable for many of them. 
The SENSE Act would make targeted changes to two regulations to 
establish emissions reductions targets that are appropriate and 
achievable for this specialized technology.
    Finally, H.R. 350, the RPM Act, seeks to clarify 
longstanding policy on vehicles modified exclusively for 
competition on racetracks. Thousands of amateur racing 
enthusiasts support a wide range of large and small 
businesses--from components manufacturers and retailers, to 
racetrack operators, to garages that service these specialized 
racing vehicles. Never in the 47 year history of the Clean Air 
Act has the agency enforced the anti-tampering provisions 
against vehicles that are taken off public roads and driven 
exclusively on raceways, but in 2015 the agency inserted 
language into an unrelated proposed rule suggesting a change in 
policy. While the EPA later retracted that language, it did so 
in a manner that left unclear the legal status of the owners of 
these cars and motorcycles as well as the businesses that serve 
them. The RPM Act would remove that cloud and make clear that 
the agency's hands-off policy is indeed the law.
    We welcome constructive input on these bills, but time is 
of the essence. The next wood heater deadline takes place in 
2020, the coal-refuse-to-energy deadline is 2019, and the brick 
deadline is 2018. This is a very short window for small 
businesses to line up the financing and undertake the required 
work, assuming they can afford to do it at all. That is why I 
support action to enact these bills as soon as possible. Thank 
you.

    Mr. Shimkus. And I now yield to the vice chairman of the 
Telecom Subcommittee, Marsha Blackburn, for as much time as she 
may consume.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And I just want to, first of all, thank our witnesses for 
being here. And I want to thank the chairman for putting these 
bills forward and allowing us to work on this on behalf of our 
constituents and our small business manufacturers.
    You look at the impact of things like the BRICK Act and the 
good work that is being done there trying to get these clay 
products manufacturers out from under some of the weight of the 
EPA.
    As I work in my district with small business manufacturers, 
whether it is building products, whether it is just-in-time 
manufacturing for the auto industry, whether it is those that 
are working in energy generation, I hear repeatedly that the 
EPA is a stumbling block. It has not been helpful over the last 
few years.
    I am certain that Administrator Pruitt is going to do a 
good job of rightsizing the EPA and the rules and also making 
certain that we do what is necessary to conserve and protect 
our environment.
    So I thank you for the hearing. I yield back.
    Mr. Shimkus. The gentlelady yields back her time.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair.
    And good morning to our panelists.
    Today's legislative hearing will focus on four bills that 
seek to amend and, in my opinion, weaken the Clean Air Act.
    But, first, I want to thank all of our witnesses for being 
here today. I certainly appreciate hearing the perspectives 
from small businesses that are responsible for implementing the 
EPA rules.
    I also want to thank Dr. Bascom for being here on behalf of 
the American Thoracic Society. It is equally important that we 
hear about the medical and public health effects of delaying 
Clean Air Act rules.
    Finally, I am happy to welcome back Ms. Alexandra Teitz, 
who served as senior counsel to this committee for many years 
and is testifying on behalf of the Sierra Club.
    The first two bills, the BRICK Act and the SENSE Act, were 
considered by the committee in the 114th Congress. Once again, 
I doubt the likelihood of either becoming law in the 115. I 
would recommend that, instead, we use our limited time to 
continue to build upon our bipartisan record of success.
    H.R. 1917, the Blocking Regulatory Interference from 
Closing Kilns, or BRICK, Act, would delay implementation of the 
EPA's Brick and Structural Clay Products Rule until all legal 
challenges are resolved. Not only does this incentivize 
frivolous litigation and delay compliance, it creates a bad 
precedent that could be applied to other standards. Personally, 
I believe this can more effectively be resolved by the courts.
    H.R. 1119, the Satisfying Energy Needs and Saving the 
Environment, or SENSE, Act, would revise EPA's Cross-State Air 
Pollution Rule, or CSAPR, and Mercury and Air Toxics Rule, or 
MATS, to allow power plants that burn waste coal to emit higher 
levels of sulfur dioxide and hydrogen chloride.
    New York has seen the benefits of the Clean Air Act's good-
neighbor provision. I saw the damage caused by acid rain, 
particularly near my district, north of my district, in the 
Adirondacks, and much of it was due to out-of-State pollution.
    CSAPR requires certain States to reduce their annual 
emissions of sulfur dioxide. This rule has been extremely 
effective, preventing tens of thousands of premature deaths and 
hospitalizations and millions of missed days of work or school 
each year.
    CSAPR used a phased-in approach to achieve emissions 
reductions, where emissions allowances decreased over time. But 
the SENSE Act would hold allowances for waste coal constant. It 
is worth noting that States already have the ability to create 
their own implementation plans, which could include shifting 
allowances. This bill would impede on States' rights to 
determine the best path for reducing emissions.
    Ultimately, I do not believe we should be giving any fuel 
source special treatment on reducing air pollution, especially 
when other power plants are expected to meet similar 
requirements.
    H.R. 453, the Relief from New Source Performance Standards 
Act of 2017, would delay the Step 2 compliance date by 3 years 
for three categories of wood-fueled heaters. I would note that 
there are companies already compliant with EPA's 2020 standard.
    Finally, H.R. 350, the Recognizing the Protection of 
Motorsports Act of 2017, would exempt motor vehicles used 
solely for competition from penalties for altering a vehicle 
that results in increased emission of air pollutants. I am 
concerned how broadly this bill is written. It would create a 
loophole that would make it even more difficult for EPA to 
regulate manufacturers that produce emissions-control defeat 
devices for vehicles.
    Ultimately, delaying or undermining rules that seek to 
reduce hazardous air pollutants is not good for Americans. It 
is not good for their health. The scientific, medical, and 
public health communities have ample evidence that polluted air 
is a threat to our health, particularly for vulnerable 
populations. We also know that pollution can be a tremendous 
drag on our economy and productivity, causing respiratory 
illnesses, costly hospitalizations, missed school- and 
workdays, and even premature deaths.
    The Clean Air Act has been about making progress over time. 
The longer we delay new standards, the longer our constituents 
are forced to live with unhealthy levels of air pollution. Our 
country can do better than the status quo, and, in recent 
years, the EPA has worked hard to develop protections that will 
continue the decades-long trend of improving our Nation's air 
quality.
    So I want to reiterate my initial concerns with the bills 
before us today. I look forward to hearing from our witnesses, 
and I do yield back. Thank you, Mr. Chair.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the chairman of the full 
committee, Mr. Walden from Oregon, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman and appreciate the 
hearing and your leadership on these issues.
    I want to focus on this air quality issue, especially as it 
relates to wood stoves and what is happening in the West. Year 
after year after year after year after year after year after 
year, we have these catastrophic wildfires on Federal lands, 
some of which have been set aside and managed in a way that 
they have no management. Some people litigate, some 
organizations litigate every effort or nearly every effort, it 
seems, to go in and reduce the fuel loads.
    My hometown of Hood River is under--part of it has been 
under evacuation, 1 level, for fear of a fire that is burning 
in the Columbia Gorge National Scenic Area that blew out 14 
miles overnight. The main freeway is closed, has been for the 
better part of a week and will be for another week.
    I raise this because air quality issues in Oregon and 
elsewhere in the West in the summer have gotten to the 
hazardous level. So if you want to do something that is 
extraordinarily important, it is join us in trying to reform 
how we manage our precious public lands and our Federal forests 
to reduce the fuel loads.
    This year, on the 30th anniversary of Cycle Oregon, they 
had to cancel it because the air quality was so bad. They had 
to cancel performances at the National Shakespeare Festival, 
the Britt Music Festival. The Sisters Folk Festival had to be 
canceled. And schools have had to close because of the 
emissions, toxic emissions, from these forest fires.
    We have had legislation the House has passed time and 
again--we hope to do it again this year--to be able to get in 
to manage these lands like all other forest land managers 
manage except for the Federal forests. We have to change this 
policy.
    I have constituents who remain perplexed that they have to 
invest in new wood stoves to scrape by and heat their homes 
when all summer long they can't breathe in their homes or their 
schools because the smoke gets trapped in the valleys from the 
forest fires. Now, we need to improve both; I recognize that. 
But the same organizations that have litigated and shut down 
logging activities on our forests and deprived them of their 
economic activities that result in the increased fuel loads 
that end up with these fires that end up destroying our forests 
and polluting our air now want to make their costs go up to 
keep their homes warm in the winter.
    So we have to do better as a country. I look forward to 
working with my friends across the aisle on our legislation. To 
really make a big change in air quality, we need to address how 
we manage our public forests. Because burning, dead trees emit 
carbon. Healthy, green trees sequester carbon. It is that 
simple. And we haven't even gotten into the runoff that will 
occur in our watershed, the damage to fish and habitat that 
exist on these fires.
    So they cost us hundreds of millions of dollars a year. 
Five hundred thousand acres have burned in Oregon already this 
summer. And we have to do better for air quality, for water 
quality, and for the future of our precious public resources.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    I come from a district back in Oregon comprised of many 
rural communities where small businesses are most often the 
core of local economies and the primary job creator. That is 
just one reason why Federal regulators need to be especially 
carefulwhen imposing costs on the small businesses, not to 
mention the consumers, least able to absorb them.
    I believe that EPA has on occasion failed to consider the 
interests of the ``little guy'' when regulating sectors 
dominated by small manufacturers and other small businesses 
resulting in policies that do more economic harm than 
environmental good, and place undue burden on consumers. Today, 
we will consider four bills that make commonsense adjustments 
to preserve small businesses and jobs while still protecting 
the environment.
    We will address the impact of regulations and policies 
aimed at brick makers, coal-refuse-to-energy plants, the 
amateur racing industry, and, particularly important to many in 
rural Oregon, wood stoves.
    In many parts of Oregon, we're surrounded by forests and 
wood stoves are the most economical way to heat a home or a 
ranch shop. But Oregonians in these areas know all too well how 
expensive burdensome regulations can be. Areas like Lakeview 
and Klamath Falls have found themselves facing no good option 
between risking air quality restrictions that make could 
prohibit economic growth, or forcing residents to purchase 
expensive new wood stoves that meet new regulations. These 
communities ended up spending $1.5 million to help consumers 
afford new stoves.
    All this, while our Federal forests continue to burn 
catastrophically every summer because of a lack of proper 
management, pumping unregulated particulate matter, aerosols, 
and carbon into the air. In short, right now most of my 
communities are suffocating from the smoke of wildfires. More 
than 500,000 acres have burned. It's hard for our citizens to 
understand how the failure of the Federal Government to better 
manage forest lands to reduce the pollution from fires is 
balanced against the punitive and costly regulation of another 
Federal agency when they're trying to scrape by and heat their 
homes.
    Some may argue that Congress has no role modifying EPA 
rules, and that we should simply wait it out while legal 
challenges work their way through the courts or EPA completes 
its reconsideration process of these policies. With respect to 
the issues and legislation being addressed today, I disagree. 
After all, it was Congress that delegated to EPA its authority 
under the Clean Air Act, and Congress has the right and the 
duty to step in when we see this authority being misused in 
ways that threaten small businesses and jobs. Furthermore, time 
is short and there is noguarantee that either the courts or the 
agency will act soon enough to prevent plant closures and pink 
slips.
    The direct and indirect jobs in these sectors are well 
worth preserving, and that can be done with minimal and 
targeted changes to existing EPA provisions.
    We may hear claims today that these bills represent a 
dangerous rollback of environmental and public health 
protections, but we need to maintain a sense of perspective. 
For one thing, none of the four sectors at issue are 
particularly significant sources of emissions. For example, 
coal-refuse-to-energy plants represent about one half of one 
percent of the Nation's coal-fired capacity, and vehicles 
modified to be used exclusively for competition are an even 
smaller fraction of the 250 million vehicles owned by 
Americans. Additionally, many of these businesses face other 
measures that restrict emissions. The brick industry has 
already reduced emissions by nearly 95 percent according to a 
study by the U.S. Chamber of Commerce. Perhaps most 
importantly, none of the bills we will discuss repeals any 
regulation--they simply make minimal adjustments in order to 
reduce the risk of plant shutdowns and layoffs.
    I conclude by noting that EPA recently updated its air 
quality trends to include the 2016 data, and the news is very 
good. Air pollution continues to decline, and that includes 
nearly all the emissions at issue today. The data shows that 
there is no environmental justification for inflicting economic 
harm on small businesses and the communities where they are 
located, and thus there is every reason to pass these bills to 
ensure that any such harm is avoided.

    Mr. Walden. With that, I would yield the balance of my time 
to my friend from North Carolina, Mr. Hudson.

 OPENING STATEMENT OF HON. RICHARD HUDSON, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Hudson. I thank the gentleman.
    And thank you, Chairman Shimkus and Ranking Member Tonko, 
for holding today's important hearing on reducing regulatory 
burdens on small manufacturers and job creators.
    I appreciate the subcommittee's consideration of this 
commonsense RPM Act, introduced by Representative Patrick 
McHenry and myself.
    I am from Concord, North Carolina, arguably the heart of 
motorsports of America, so I know a thing or two about 
motorsports and its impact on our economy. I am fortunate to 
represent many of the 57 racetracks in our State, including the 
Charlotte Motor Speedway, as well as many race teams and small 
businesses that take part in the racing industry.
    It will come as no surprise that the EPA's proposed racing 
regulation threatens the way of life of a lot of Americans who 
enjoy modifying cars for competition, as well as a $1.6-
billion-a-year industry.
    In 1990, when Congress amended the Clean Air Act, the 
legislation made explicit these vehicles were off limits to 
regulation. But the EPA decided to ignore the law and targeted 
the racing industry anyway. Rightfully so, after that happened, 
I heard from many constituents who were concerned this rule 
would bring their industry to a screeching halt.
    Former EPA Administrator Gina McCarthy once testified in 
front of this committee that job loss is not a consequence of 
environmental rules. During a hearing on our budget, I reminded 
her of this statement and told her how many jobs this 
regulation alone would eliminate. The Administrator admitted 
the outcome of EPA's regulation did not match their intent. So, 
shortly after this testimony, I wrote a letter with my 
colleagues to EPA asking for clarification. Three days later, 
they reversed their decision and dropped this foolish proposal.
    That is a huge victory, but the RPM Act is still needed to 
give long-term certainty to this industry and to stop the EPA 
from ever attempting to regulate this racing industry again. I 
look forward to working with the committee to advance this 
initiative.
    And before I yield back, Mr. Chairman, I would ask 
unanimous consent that I be able to submit for the record a 
letter from John Marshall from Innovation Performance 
Technologies, a business in my district that will be impacted 
by this regulation.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the ranking member of the full 
committee, Congressman Pallone from New Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Shimkus.
    The four bills before us this morning are more about 
transferring burdens than relieving them. My Republican 
colleagues repeatedly claim they support clean air, and yet 
they continually put forward bills designed to delay, weaken, 
or repeal regulations that are issued to protect public health 
by cleaning up the air.
    The so-called relief from regulation comes at the expense 
of the public's health, and costs are not reduced. They are 
just transferred from favored businesses to the general public, 
who will pay for more doctor visits and lost work- or 
schooldays.
    Exempting businesses from clean air rules leads to more air 
pollution. It is that simple. We all want small businesses to 
thrive, and the history of the Clean Air Act demonstrates 
clearly that we can grow the economy while cleaning up the air 
and improving public health.
    We considered two of these bills in the last Congress, H.R. 
1917, the BRICK Act, and H.R. 1119, the SENSE Act. And I 
opposed them then, and I oppose them now.
    While I understand there are special circumstances relating 
to the hazardous air pollution rule for brick and clay ceramic 
manufacturing, the BRICK Act is the wrong answer. It would set 
a terrible precedent, encouraging endless legal challenges 
designed to stall compliance with regulations. In this case, it 
is proceeding in the courts, and the court has the ability to 
stay the rule. This issue should be resolved there, not here.
    The SENSE Act would revise the Mercury and Air Toxics 
Standards and Cross-State Pollution Rules to allow power plants 
that burn coal refuse to emit higher levels of sulfur dioxide 
and hydrogen chloride. It is unnecessary and would allow plants 
to produce more pollution.
    As a Representative from a downwind State, I am 
particularly concerned about this bill. The Cross-State Rule 
uses a phased-in approach to achieve emissions reductions to 
allowance trading. It would shift a greater percentage of these 
emission allowances to coal refuse plants.
    The EPA has a plan for how all these allowances should be 
allocated to individual plants. The States also have the 
ability to submit their own plans for achieving the required 
emission reductions. So the States already have the power to 
give extra allowances to coal refuse plants, as this bill would 
mandate.
    H.R. 453, the Relief from New Source Performance Standards 
Act of 2017, extends the deadline for implementing new 
standards for residential wood-fueled stoves, hydronic heaters, 
and forced-air furnaces. EPA finalized rules for these 
appliances in 2015 and the new standards that apply to 2020. 
These standards have not been updated since 1988, nearly 30 
years ago, and there is no justification for extending the 
deadline.
    Wood smoke from inefficient heating devices creates harmful 
particulate pollution, as well as toxic air pollutions like 
benzene and formaldehyde. Delaying this rule will allow 
noncompliant stoves and heaters to be sold for 3 more years, 
and since these appliances last for decades, it would take much 
more time to reduce pollution from these devices.
    A number of States have taken steps to encourage the 
transition to cleaner-burning devices. Several States 
petitioned EPA to initiate this rule because of severe local 
problems with wood-smoke pollution. The companies that have 
invested to improve their products to meet the deadline--and 
there are many--should be rewarded for their efforts. And, 
instead, this bill rewards those who have delayed, while 
punishing the public with more pollution.
    And, finally, we have H.R. 350, the Recognizing the 
Protection of Motorsports Act of 2017. Automobile racing's 
history is as long as the car itself, and amateur racing 
continues to be a popular pastime. No one wants to end this 
activity. But there is a big difference between racing on a 
track, whether as a professional or an amateur, and daily 
driving on public roadways.
    The devices marketed and installed on a vehicle to improve 
its performance as a racing car are defeat devices. They 
undermine emission control systems and result in more 
pollution. And daily driving of such a vehicle pumps 
significantly more pollutants into the air. EPA just fined 
Volkswagen for using defeat devices, as we know.
    So, if someone installs these devices on a vehicle, that 
vehicle should no longer be driven on public roads. It is now a 
racecar, and it should only be raced on a track. But H.R. 350 
creates a loophole in the Clean Air Act that is much too broad 
to ensure that these devices will only end up on a racetrack, 
and I oppose it in its current form. This may be something we 
can work on going forward, but I can't support a bill that 
facilitates emissions cheating.
    Again, I do not accept that we have to compromise the 
public's health to have a healthy economy. These bills make 
that trade, and they undermine the public health protections 
within the Clean Air Act. And I think we can and should do much 
better, Mr. Chairman.
    And, with that, I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, the four bills before us this morning are 
more about transferring burdens than relieving them. My 
Republican colleagues repeatedly claim they support clean air, 
and yet, they continually put forward bills designed to delay, 
weaken, or repeal regulations that are issued to protect public 
health by cleaning up the air.
    This so-called ``relief'' from regulation comes at the 
expense of the people's health. And costs are not reduced; they 
are just transferred from favored businesses to the general 
public who will pay for more doctor visits and lost work or 
school days.
    Exempting businesses from clean air rules leads to more air 
pollution. It is that simple. We all want small businesses to 
thrive and the history of the Clean Air Act demonstrates 
clearly that we can grow the economy while cleaning up the air 
and improving public health.
    We considered two of these bills in the last Congress--H.R. 
1917, the BRICK Act and H.R. 1119, the SENSE Act. I opposed 
them then, and I oppose them now.
    While I understand there are special circumstances related 
to the hazardous air pollution rule for brick and clay ceramic 
manufacturing, the BRICK Act is the wrong answer. It would set 
a terrible precedent, encouraging endless legal challenges 
designed to stall compliance with regulations. This case is 
proceeding in the courts and the court has the ability to stay 
the rule. This issue should be resolved there, not here
    The SENSE Act would revise the Mercury and Air Toxics 
Standards and Cross-State Air Pollution rules to allow power 
plants that burn coal refuse to emit higher levels of sulfur 
dioxide and hydrogen chloride. It is unnecessary and would 
allow plants to produce more pollution.
    As a Representative from a downwind State, I am 
particularly concerned about this bill. The Cross-State rule 
uses a phased-in approach to achieve emissions reductions 
through allowance trading. It would shift a greater percentage 
of these emissions allowances to coal refuse plants.
    EPA has a plan for how those allowances should be allocated 
to individual plants, but States also have the ability to 
submit their own plans for achieving the required emissions 
reductions. So States already have the power to give extra 
allowances to coal refuse plants as this bill would mandate.
    H.R. 453, the Relief from New Source Performance Standards 
Act of 2017, extends the deadline for implementing new 
standards for residential wood-fueled stoves, hydronic heaters, 
and forced-air furnaces. EPA finalized the rule for these 
appliances in 2015, and the new standards apply in 2020. These 
standards have not been updated since 1988--nearly 30 years 
ago. There is no justification for extending the deadline. Wood 
smoke from inefficient heating devices creates harmful 
particulate pollution, as well as toxic air pollutants like 
benzene and formaldehyde.
    Delaying this rule will allow non-compliant stoves and 
heaters to be sold for 3 more years. And, since these 
appliances last for decades, it will take much more time to 
reduce pollution from these devices.
    A number of States have taken steps to encourage the 
transition to cleaner burning devices. Several States 
petitioned EPA to initiate this rule because of severe local 
problems with wood smoke pollution. The companies that have 
invested to improve their products to meet the deadline--and 
there are many--should be rewarded for their efforts. Instead, 
this bill rewards those that have delayed, while punishing the 
public with more pollution.
    Finally, we have H.R. 350, the ``Recognizing the Protection 
of Motorsports Act of 2017.'' Automobile racing's history is as 
long as the car itself. And, amateur racing continues to be a 
popular pasttime. No one wants to end this activity. There is a 
big difference between racing on a track--whether as a 
professional or an amateur--and daily driving on public 
roadways. The devices marketed and installed on a vehicle to 
improve its performance as a racing car are defeat devices--
they undermine emission control systems and result in more 
pollution. Daily driving of such a vehicle pumps significantly 
more pollutants into the air. EPA just fined Volkswagen for 
using defeat devices.
    If someone installs these devices on a vehicle, that 
vehicle should no longer be driven on public roads. It is now a 
race car. And, it should only be raced on a track. H.R. 350 
creates a loophole in the Clean Air Act that is much too broad 
to ensure that these devices will only end up in race cars. I 
oppose it in its current form. This may be something we can 
work on going forward, but I cannot support a bill that 
facilitates emissions cheating.
    Again, I do not accept that we have to compromise the 
public's health to have a healthy economy. These bills make 
that trade. They undermine the public health protections within 
the Clean Air Act. I think we can and should do much better.

    Mr. Shimkus. The gentleman yields back his time.
    And we have now concluded Members' opening statements. The 
Chair would like to remind Members that, pursuant to committee 
rules, all Members' opening statements will be made part of the 
record.
    Again, we want to welcome our panel. Thank you for being 
here. Many of you have traveled great distances to join us.
    Your full statements will be submitted for the record. You 
will have 5 minutes. We will be lenient, but don't go 10. We 
will gavel you down.
    And we appreciate you being here, and I will introduce you 
as your time comes forward. And I can't wait to introduce 
Alexandra before the committee, so that will be a real joy.
    So, first, we would like to have Mr. Frank Moore, president 
of Hardy Manufacturing Company.
    You are recognized for 5 minutes. Welcome.

   STATEMENTS OF FRANK MOORE, PRESIDENT, HARDY MANUFACTURING 
 COMPANY, INC.; RYAN L. PARKER, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, ENDICOTT CLAY PRODUCTS COMPANY; ALEXANDRA E. TEITZ, 
 PRINCIPAL, AT STRATEGIES, LLC, ON BEHALF OF THE SIERRA CLUB; 
  VINCENT BRISINI, DIRECTOR OF ENVIRONMENTAL AFFAIRS, OLYMPUS 
  POWER, LLC, ON BEHALF OF THE ANTHRACITE REGION INDEPENDENT 
 POWER PRODUCERS ASSOCIATION; REBECCA BASCOM, M.D., PROFESSOR, 
   PENN STATE COLLEGE OF MEDICINE, ON BEHALF OF THE AMERICAN 
    THORACIC SOCIETY; AND STEVE PAGE, PRESIDENT AND GENERAL 
                    MANAGER, SONOMA RACEWAY

                    STATEMENT OF FRANK MOORE

    Mr. Moore. Thank you, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. Thank you for holding 
today's hearing.
    My name is Frank Moore, and I am president and owner of 
Hardy Manufacturing Company. We are a small, family-owned 
business with about 50 employees and a network of 400 dealers.
    My father-in-law developed and patented the outdoor 
hydronic heater in the late seventies. This product was 
developed to help farmers and rural workers who had their own 
firewood to heat their homes and were trying to make ends meet. 
Those needs continue today.
    I am here representing wood-burning stove and heater 
manufacturers, dealers, retailers, and installers, most of whom 
are small businesses, and all are impacted by the EPA's 
emissions standards for new residential wood heaters. And so 
are the consumers who depend on wood burning to heat their 
homes. These products include hydronic heaters, wood and pellet 
stoves, and wood furnaces.
    I will refer to this regulation as the New Source 
Performance Standard, or NSPS for short.
    And I want to be clear, the wood-burning industry supports 
Federal standards. In fact, we have petitioned the EPA to set 
national standards so our industry would have uniformity and 
predictability. We did not ask to be regulated out of business. 
We are not asking Congress to repeal the EPA rule. We are only 
asking you to provide us an additional 3 years to continue R&D, 
testing, and certification of EPA.
    So hereis the situation that we face. The NSPS rule was 
finalized in 2015 with two sets of standards. Many 
manufacturers were able to meet the Step 1 standards, which for 
Hardy and other hydronic heater manufacturers meant about a 90 
percent emissions reduction. Step 2 standards are the 
challenge, requiring a nearly 98 percent emissions reduction by 
May 2020. Products not meeting Step 2 standards cannot be sold 
after May 2020 even if they are sitting at a retailer's.
    To accomplish all of the following steps by the summer of 
2018--that is 1 year from now--number one, develop new, cleaner 
technologies that don't yet exist; number two, test them 
internally for durability and customer satisfaction; number 
three, work through the coming logjam at one of only five EPA-
approved test labs to have the new product certified as 
compliant with Step 2; and, lastly, receive EPA approval on our 
certification application.
    There is simply not enough time to complete these steps and 
manufacturing appliances can be sold by 2020. An additional 3 
years would also help spread out significant R&D costs, ranging 
from $200 to $500,000 per product. Plus, EPA lab testing costs 
as much as $20,000 per test. For small businesses like mine, 
these costs are huge.
    This regulation is already costing jobs. As an example, a 
company in Minnesota has already laid off workers to divert 
capital into R&D, fearing they will not have product ready to 
sell in 2020. Some small manufacturers have told us they may 
exit the business because they cannot recoup their investment 
competing against larger companies.
    Since the NSPS became law, Hardy's sales and payroll has 
been cut in half. We continue to be aggressive in developing 
Step 2 appliances, but with the short lead time to complete 
certification, I am not sure our company can survive.
    If this deadline is not changed, the wood-burning home-
heating industry will shrink, hurting small businesses and 
reducing jobs. For consumers, that means less choice and higher 
prices, factors that will slow improvements to our Nation's air 
quality because consumers will hold on to their older, higher-
emitting heaters when faced with higher prices and fewer 
products.
    Most NSPS standards are reviewed no more frequently than 
every 8 years. This rule combines two revisions within one 5-
year period. The small businesses in our industry are in dire 
need of a 3-year extension.
    Thank you for your time today, and I will try to answer any 
questions that you might have.
    [The prepared statement of Mr. Moore follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Mr. Shimkus. The gentleman yields back his time, and the 
Chair thanks you.
    The Chair now recognizes Mr. Ryan Parker, president and CEO 
of Endicott Clay Products.
    You are recognized for 5 minutes, sir.

                  STATEMENT OF RYAN L. PARKER

    Mr. Parker. Chairman Shimkus, Ranking Member Tonko, and 
distinguished members of the subcommittee, good morning, and 
thank you for inviting me to testify on this important issue.
    My name is Ryan Parker. I am the president and CEO of 
Endicott Clay Products Company, which has manufactured clay 
brick near Endicott, Nebraska, for 97 years. Our company is a 
family-owned company, and I currently work with two of the 
three generations of that ownership.
    We have grown from a plant that serves a local market to a 
nationally recognized manufacturer. We have a recipe that has 
made it possible: devoted employees, wonderful clay, and a 
passion for excellence.
    I am also here on behalf of my industry, as I serve on the 
board of directors of the Brick Industry Association. We are an 
industry that has less than $1 billion in total annual revenue. 
Approximately 75 percent of the companies in the brick industry 
are small businesses, like Endicott Clay Products Company, and 
have been making brick for 100 years or more.
    The manufacturers in my association have been good 
employers and neighbors in their local communities. Our 
industry is committed to doing our share and to doing the right 
thing for our employees, our vendors, customers, and 
communities.
    However, as our industry continues to struggle to come out 
of the Great Recession, we have limited resources. It is 
imperative that these limited resources be used judiciously and 
on the most important issues. It is important that there is 
some benefit to every dollar spent and that the money not be 
spent needlessly or prematurely.
    Our company currently employs approximately 325 people, 
including our manufacturing, sales, and support staff. The 
village of Endicott that we are located near has a population 
of 132. We work in a very rural area and struggle to attract 
qualified workers from a 45-mile radius around our plant. Most 
of our employees grew up in a small town or on a farm and 
exemplify the grit and determination that made our country the 
greatest in the world.
    Our company makes something tangible, something real, 
something sustainable that people admire for generations on 
schools, churches, homes, and skylines all over North America. 
The permanency of what we do is our daily inspiration.
    Nearly 10 years ago, the permanency of our business and our 
industry was called into question. Our industry was facing a 
massive recession and was coming into compliance with air 
regulations that hit our industry hard.
    The first Brick Maximum Achievable Control Technology Rule, 
Brick MACT, that was finalized in 2003 required state-of-the-
art air quality emissions controls for many brick plants 
throughout the country. After $100 million were spent by my 
industry to come into compliance with the 2003 Brick MACT 
through expensive stack tests and control devices, the rule was 
vacated by the courts in 2007.
    The cost of coming into compliance with the vacated rule 
was never to be recouped, and many brick plants had to continue 
annual operation and expense of the installed control devices 
due to operating permits being issued that incorporated the 
devices.
    The newest Brick MACT was promulgated in 2015 and requires 
existing source compliance by December 26, 2018. I am here 
today because we are concerned that this regulation could 
become the same moving target that the last Brick MACT did and 
that further expense and regulatory uncertainty could cripple 
our industry. We are here to ask your help to ensure that our 
companies comply with a rule that will not be vacated in the 
courts again. We believe the BRICK Act can give us the 
certainty we need.
    The 2015 Brick MACT does include some innovative 
requirements, including health-based standards for over 99 
percent of the hazardous air pollutant emissions from our 
industry kilns. Unfortunately, the requirements for the 
remaining 1 percent emissions,mercury and nonmercury metals, 
will require the same multimillion-dollar controls for many in 
our industry that would have been required before the health-
based standards were conceived.
    If the emission limits in the 2015 Brick MACT are altered 
as a result of the current pending litigation, we could be 
facing a significant cost. The cost of adding air pollution 
control devices for our company alone would be approximately $8 
million. We have already spent hundreds of thousands of dollars 
on two baghouses, stack testing, and engineering support.
    For many in our industry, they are quickly having to decide 
whether or not to add further control devices. Reminiscent of 
the painful decisionmaking made by many in our industry in the 
2000s, the cost of compliance is now, while the certainty and 
form of the 2015 Brick MACT is unknown. Unknown costs and 
regulatory uncertainty hurts companies like ours. A financial 
burden of millions would be devastating to our company. We do 
not have the ability to pass along these costs to our 
customers.
    I cannot say for certain that we would ever be able to 
borrow the money required to finance air quality controls that 
will increase our costs dramatically without adding to our 
revenue or product quality, especially since these controls 
would do very little to improve the air quality near our plant.
    It is easy to imagine that the loss of a brick company here 
or there is manageable for the small communities that most of 
us operate within. However, if Endicott Clay Products were to 
cease operation, millions would be lost from our community. As 
the largest employer by far in our county, we pay over $10 
million in wages to our 325 employees per year. Most of our 
employees would have difficulty finding other employment due to 
lack of opportunity, educational requirements, and jobs that 
require their lifelong skills acquired in brick-making.
    Our historical narrative is a good one. We manufacture a 
sustainable product embraced by everyone on the political 
spectrum. We have a product that delivers thermal, lifecycle, 
aesthetic, and safety benefits to buildings and civilization 
since the Babylonians.
    The BRICK Act would allow us some time to see exactly what 
is needed to comply with the 2015 Brick MACT and ensure that we 
and others in our industry are not investing in equipment that 
ultimately is not needed. Our industry's past experience with 
the 2003 Brick MACT compliance showed us how easily $100 
million in investment for air controls can be made obsolete. 
Please work together to allow our industry to gain the 
necessary time to see that our jobs, our product, and our 
livelihoods are not jeopardized.
    Thank you for taking the time to listen to me today, and I 
would be happy to answer any questions that you may have.
    [The prepared statement of Mr. Parker follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Shimkus. Thank you very much.
    Now I would like to recognize Ms. Alexandra Teitz from AT 
Strategies, on behalf of the Sierra Club.
    Welcome back, and it is great to see you.

                STATEMENT OF ALEXANDRA E. TEITZ

    Ms. Teitz. Thank you, Mr. Chairman, and thank you, Mr. 
Tonko and members of the committee, for this opportunity to 
testify today and for your very kind welcome.
    My name is Alexandra Teitz. I am principal at AT 
Strategies, and I am here today representing the Sierra Club. 
The Sierra Club is the Nation's oldest and largest grassroots 
environmental nonprofit organization, with over 826,000 members 
nationwide.
    I have practiced clean air law for over two decades now, 
first as an attorney in the Office of General Counsel at EPA 
for many years and then for many more years up here in jobs on 
the Hill and, in particular, as senior counsel to this 
committee, which was a truly wonderful experience.
    Today's hearing considers four bills that would modify 
clean air regulations or the act itself to allow specified 
entities to emit more pollution into the air. Of a special 
concern, the SENSE Act would weaken the Cross-State Air 
Pollution Rule and the Mercury Air Toxics Standards Rule for 
power plants, which are two of the most important and effective 
pollution-control requirements in place today.
    The bills we are discussing today would result in more 
smog, more fine particle pollution, and more toxic air 
pollution. The effects would be real, and they would be 
harmful. They mean more asthma attacks, more kids in emergency 
rooms, more bronchitis, more heart attacks, and more pneumonia, 
among other health impacts.
    In addition, the bills embody a fundamentally unfair and 
deeply troubling approach to regulation. These bills grant 
favors to special interests. No matter how great these 
companies are, they are being singled out for special favors, 
picking winners and losers in competitive markets.
    And with slim rationales for the proposed legislative 
actions, Congress would be overturning evidence-based 
scientific, technical, and legal decisions that were made by 
EPA, States, and courts after extensive open public processes, 
including with a lot of industry input.
    Since Congress passed the Clean Air Act in 1970, we have 
made significant progress in cleaning up our air by following a 
basic principle: We hold polluting entities responsible for 
cleaning up their pollution.
    Generally, where air pollution is harmful and can be 
controlled, we require polluters to take reasonable actions to 
reduce their emissions. Determinations of what is harmful and 
what is reasonable in specific instances are highly technical, 
and these decisions are made generally by EPA or State 
regulators as authorized by law and based on science, analysis, 
data, and open public process.
    But these bills take a different approach. They would 
create loopholes in the requirements for a few specific 
entities: waste coal plants, brick manufacturers, manufacturers 
of residential wood heaters, and manufacturers of certain 
aftermarket auto parts. The loopholes are neither necessary nor 
justified, but the bills would allow these specific entities to 
meet looser standards, delay their cleanups, or avoid 
regulation altogether.
    One of these bills would bypass a feature of our court 
system just for brick manufacturers by staying the effective 
date of air toxics standards for the brick industry until all 
challenges to the rules are resolved. This effectively 
eliminates the courts' current authority to grant or deny a 
stay request in the ongoing litigation.
    Another bill would tamper with the longstanding principle 
under the Clean Air Act that, where EPA determines that States 
need to reduce a given quantity of pollution, the States retain 
the authority to determine how to achieve those reductions. But 
Congress would substitute its judgment, in this case.
    And one bill, as a practical matter, although it is not at 
all clear this is the intent of the bill, but the effect would 
be to hobble EPA enforcement against cheating on vehicle 
pollution controls, which can be a very significant air 
pollution problem.
    In granting special breaks to these entities, Congress 
would overrule decisions and authorities of States and courts 
as well as the EPA. It would hurt the many small businesses 
that have already made the investments to take care of their 
pollution and clean up by moving the goalpost midgame, and it 
puts them at a competitive disadvantage.
    By shifting cleanup responsibilities to sources of 
pollution with higher cleanup costs, as some of the bills do, 
Congress would interfere in the markets, create inefficiencies, 
and raise costs across the board.
    And since there is no way to legislate away the harm from 
pollution, the American people and particularly our kids and 
our seniors would have to pay for these special breaks with 
their health. And, to me, that doesn't make sense, and it 
doesn't seem fair.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. Teitz follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Mr. Shimkus. The gentlelady yields back her time, and thank 
you for your testimony.
    The Chair now recognizes Mr. Vincent Brisini, director of 
environmental affairs, Olympus Power, on behalf of the 
Anthracite Region Independent Power Producers Association.
    You are recognized for 5 minutes. Welcome.

                  STATEMENT OF VINCENT BRISINI

    Mr. Brisini. Thank you, Chairman Shimkus, and thank you to 
the committee for allowing me to be here to testify today.
    I am here today testifying on behalf of ARIPPA in support 
of the SENSE Act. ARIPPA is the trade association for a small 
but unique industry that removes coal refuse from the 
environment and then combusts that coal refuse along with 
limestone in circulating, fluidized bed boilers to make 
electricity.
    The coal refuse being used by the ARIPPA member facilities 
and other similar facilities is typically material remaining 
after the historic mining and processing of coal. The resulting 
ash from this coal-refuse-to-energy process is used to 
remediate and reclaim coal refuse sites and other mining-
affected lands. Coal refuse piles cause air, surface water, and 
groundwater pollution, as well as being safety and health 
hazards.
    As a lifelong resident of the bituminous coal region of 
Pennsylvania, I lived among coal refuse piles and have 
experienced firsthand the air pollution and odor issues caused 
by the piles that are burning, the dust that blows off of them, 
and the water pollution that causes many miles of stream to be 
so contaminated that they can't support aquatic life.
    I have also witnessed the benefits provided by the coal-
refuse-to-energy facilities. The coal refuse piles that were 
removed from Revloc, Pennsylvania, by Ebensburg Power Company 
and the land that was reclaimed as part of the coal-refuse-to-
energy process not only eliminated sources of air and water 
pollution, it brought life back to the south branch of the 
Blacklick Creek. This project has allowed the South Branch 
Fishing Club to stock the stream for the past 3 years with 
between 500 and 1,000 trout each year.
    In addition to these kinds of environmental and 
recreational benefits, the coal-refuse-to-energy facilities 
provide considerable economic benefits to the areas in which 
they are located.
    According to reports prepared by Econsult Solutions, a 
Philadelphia-based economic consulting firm, the combined 
economic and environmental benefits of the coal-refuse-to-
energy industry in Pennsylvania and West Virginia total about 
$800 million per year. The industry directly and indirectly 
supports approximately 3,800 jobs, with total earnings for 
those employees of more than $231.5 million per year.
    While these coal-refuse-to-energy facilities are relatively 
small, the family-sustaining jobs they provide, directly and 
indirectly, are critical to the small communities where the 
facilities are located.
    One of the biggest problems, if not the biggest problem, 
that the SENSE Act faces is that most people have not 
personally experienced coal refuse piles. People who have never 
lived in a coal region and haven't experienced daily the 
environmental health and safety issues associated with coal 
refuse simply do not appreciate those issues and the amazing 
benefits provided by the coal-refuse-to-energy facilities.
    The Pennsylvania Department of Environmental Protection 
recently issued a report showing diminished pollutant 
loadings--generally well over 90 percent removal for most 
pollutants--from the sites that have been remediated and 
reclaimed through the coal-refuse-to-energy process. These 
reduced loadings are exactly why the South Branch Fishing Club 
has been able to successfully stock trout in the south branch 
of the Blacklick Creek.
    Absent the efforts of the coal-refuse-to-energy industry, 
it is likely that most of the remaining coal refuse piles will 
never be reclaimed or remediated. There simply isn't enough 
public funding available.
    What is important to understand about the SENSE Act is that 
it addresses the one standard in the Mercury and Air Toxics 
Standards Rule that most of the bituminous-coal-refuse-fired 
facilities can't meet, the acid gas standard. The SENSE Act, 
instead, provides an additional performance limit for 
bituminous-coal-refuse-fired facilities only, which would 
require 93 percent removal of the potential sulfur dioxide in 
the coal refuse being used as fuel.
    Importantly, under the SENSE Act, this is accomplished in a 
fashion that does not have any negative effect on the 
environment. Because the Cross-State Air Pollution Rule sulfur 
dioxide emissions budget, which the SENSE Act protects, and the 
Mercury and Air Toxics Standards Rule sulfur dioxide acid gas 
limit are both based on the same sulfur dioxide emission rate, 
the State and regional sulfur dioxide emissions will, at most, 
remain the same but, more likely, will be even lower under the 
SENSE Act.
    Consequently, all of the monetized benefits of both the 
Cross-State Air Pollution Rule and the Mercury and Air Toxics 
Standards Rule will be preserved, if not increased, by the 
provisions contained in the SENSE Act.
    So, to me, someone that has lived all of his life in the 
bituminous coal region, the SENSE Act makes perfect sense. It 
protects the environment and allows the bituminous-coal-refuse-
fired facilities to continue to provide their economic, 
multimedia, environmental safety and health benefits.
    Thank you very much for the opportunity to provide 
testimony in support of the SENSE Act. And thank you to 
Representative Rothfus for crafting a bill that is actually to 
everyone's benefit.
    [The prepared statement of Mr. Brisini follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes Dr. Rebecca Bascom, professor, 
Penn State College of Medicine, on behalf of the American 
Thoracic Society.
    You are recognized for 5 minutes. Welcome.

                  STATEMENT OF REBECCA BASCOM

    Dr. Bascom. Mr. Chairman, Ranking Member, thank you for the 
opportunity to testify today.
    I am Rebecca Bascom. I am professor of medicine at Penn 
State College of Medicine and practice at Milton S. Hershey 
Medical Center in Hershey, Pennsylvania.
    I work as a lung doctor. Half of my time each week, I have 
a white coat on, I have a stethoscope, I am listening to the 
lungs of people to decide whether they have lung disease or 
not. And I can tell you, I know a lot about people who suffer 
from lung disease, and I know a lot about the grit of people 
who have to endure some of these very difficult diseases.
    I also teach medical students, and I also do research and 
partner with amazing scientists at Penn State looking for 
solutions to some of these diseases and also to assess health 
effects and impacts on the respiratory system.
    Today, the committee is considering four bills that would 
change the Clean Air Act to create industry-specific exemptions 
and delays to meeting Clean Air Act standards. And while the 
details of the bills vary, they share one thing in common, 
which is more air pollution.
    And that is bad for the patients that I treat, because air 
pollution does make sick people sicker. For common diseases 
like asthma and COPD, exposure to air pollution makes people 
more likely to end up in the emergency room, to miss school, to 
need medications, and sometimes hastens their death.
    Air pollution is also bad for healthy people, something 
that many people are not aware of. It reduces lung function 
development. It accelerates declines in lung function. It also 
increases all-cause mortality for healthy people.
    And we know that acid gasses and sulfur dioxide have 
adverse lung effects. I had a patient who was bicycling, got 
near a power plant, and had to get off her bicycle because her 
asthma was kicked up. So the effects can occur very quickly.
    They also contribute to the formation of particulate 
matter, another dangerous form of air pollution that can be 
distributed throughout the body, with effects not only in the 
lungs but in the heart and elsewhere.
    So when we talk about air pollution, it is not just kids 
who are impacted; it is all of us.
    Air pollution is a particular concern for people that I 
treat who have advanced lung disease, cystic fibrosis that 
affects children, and pulmonary fibrosis that affects people in 
their golden years. And I need to tell you about the impact of 
air pollution on those individuals, because it changes their 
lives from managing their disease to being on death's door. And 
this is a huge problem for them and a huge source of fear.
    Forty years ago, when I started taking care of patients 
with lung disease, I was brought to a room of a patient who was 
a miracle guy. He was 20 years old, and he had lived that long 
with cystic fibrosis. And now all the time I am taking care of 
people, adults with cystic fibrosis, who have children who are 
living full lives, delivering pizza, you know, living their 
life.
    However, the thing they fear is an acute exacerbation, 
because if they get an acute exacerbation, they are going to 
land in the hospital, they are going to lose their jobs because 
they will be out for 3 weeks, needing intravenous antibiotics. 
Air pollution makes them more likely to have an acute 
exacerbation.
    And we have recently learned that air pollution makes it 
more likely that Pseudomonas aeruginosa and meth-resistant 
staph aureus take residence in the lungs of people with cystic 
fibrosis. And the presence of those bacteria make them have a 
much more difficult time maintaining their lung function. So 
air pollution puts them from a controlled situation to being on 
death's door, and that is a real problem.
    For people who have pulmonary fibrosis, air pollution makes 
them more likely to have an acute exacerbation. I see people 
with pulmonary fibrosis at our monthly support group. And I run 
the Pulmonary Fibrosis Care Center at Penn State. And I know 
that people who have an acute exacerbation may not leave the 
hospital and that ozone air pollution makes them more likely to 
have an acute exacerbation because it causes deep-lung injury, 
and injury and disrepair are the central problem for pulmonary 
fibrosis.
    So people ask me whether or not improving air pollution can 
improve health, and the answer is absolutely yes. There are 
really good data. The Harvard Six-City Study, for example, 
showed that reductions in air pollution reduce morbidity and 
mortality; some fabulous studies from Southern California that 
look at the impact on children and that show that, over a 20-
year period, that children's lung growth improves when air 
pollution levels are reduced. And that is true if you are a boy 
or if you are a girl, all ethnicities, if you have asthma or if 
you are healthy. So air pollution cleanup clearly benefits 
across a whole wide range of people.
    So, in summary, we know that air pollution is bad for 
health, and we know that improving air pollution and protecting 
our air quality improves health. And so I really encourage you 
to resist any loopholes and rollbacks on air pollution control.
    Thank you.
    [The prepared statement of Dr. Bascom follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Mr. Shimkus. The gentlelady yields back her time. Thank you 
for your testimony.
    And the last-but-not-least member of the panel is Mr. Steve 
Page, president and general manager of Sonoma Raceway.
    You are recognized for 5 minutes, and welcome.

                    STATEMENT OF STEVE PAGE

    Mr. Page. Chairman Shimkus, Ranking Member Tonko, members 
of the subcommittee, I appreciate this opportunity to speak 
today about H.R. 350, the Recognizing the Protection of 
Motorsports Act.
    The RPM Act confirms that the Clean Air Act allows for 
certified motor vehicles to be modified into race vehicles used 
solely for motorsports competition. This bipartisan bill was 
introduced by Representative McHenry and has 139 cosponsors, 
including subcommittee members Hudson, Carter, Johnson, Murphy, 
and Walberg, as well as my own Congressman, Mike Thompson.
    My name is Steve Page. I am president and general manager 
of Sonoma Raceway, a motor racing and performance automotive 
center about 30 miles north of San Francisco.
    For decades, Americans have converted their street vehicles 
into racecars, from pre-World War II classics to modern-era 
performance cars. Sonoma Raceway is proud to participate in 
this defining American tradition. Our raceway consists of a 2 
1A\1/2\-mile, 12-turn, natural-terrain road course, a quarter-
mile championship drag strip, a three-quarter-mile karting 
track, an industrial park that is home to 75 racing businesses, 
a performance racing school, acres of campgrounds, and a 
variety of support facilities.
    We offer one of the most diverse race schedules in the 
industry and are the only track in the U.S. to host all three 
of the Nation's top professional racing series: NASCAR, NHRA 
drag racing, and the IndyCar series, for which we host the 
season finale. And we invite you all to check out the 
championship race this Sunday on NBC Sports Network.
    While these major event weekends garner attention and media 
coverage at a national level, Sonoma Raceway is actually a 
year-round motorsport complex, with racing scheduled 340 days 
and up to 50 weekends a year. In fact, most of the activity at 
Sonoma Raceway consists of amateur driving programs, sports car 
and vintage racing, drag racing, motorcycle racing, testing, 
and other activities involving the recreational racing 
community.
    The majority of the vehicles competing on our track began 
their lives as assembly-line vehicles and have been modified 
with high-performance suspension, safety, and exhaust systems. 
These are cars, trucks, and motorcycles that have given up 
their license plates and arrive and depart our facility on 
trailers.
    Sonoma Raceway employs about 80 full-time workers. The 75 
small businesses located in our industrial park employ hundreds 
of skilled technicians who convert, modify, store, and prepare 
race vehicles for events.
    Racing's footprint in the local economy extends well beyond 
our campus. In 2016, the Sonoma County Economic Development 
Board measured the total regional economic impact of a single 
vintage race weekend at our facility at nearly $2 million. That 
is the kind of boost to the local economy that takes place at 
Sonoma Raceway on a regular basis, day-in, day-out, year-round, 
and is representative of hundreds of racetracks around the 
country.
    Since the majority of our racing features motor vehicles 
that were originally designed and sold for street use, we were 
surprised to learn that the EPA had issued a proposed 
regulation in 2015 to prohibit the conversion of a motor 
vehicle into a race vehicle if the emissions system is 
modified. This is inconsistent with the EPA's application of 
the law for over 40 years and represents a serious threat to 
our sport.
    According to the agency, a motor vehicle must always remain 
in its original configuration, even if it is trailered to the 
track and used exclusively for racing. While the EPA has 
signaled it does not currently intend to take enforcement 
action against individual racers, the agency maintains that it 
has the authority to do so. This interpretation now defines a 
majority of our customers as lawbreakers.
    Given the agency's policy, a clarification to the law is 
absolutely needed. The RPM Act simply makes clear that 
converting a motor vehicle into a dedicated racecar does not 
violate the law. Further, it restores the original intent of 
the Clean Air Act, that the law applies to motor vehicles used 
on our roads and highways and not to race vehicles and parts.
    In California, which owns the strictest emission laws in 
the country, our State government takes a different approach. 
California statute and regulations specifically allow for motor 
vehicles to be modified for use exclusively in motorsport 
competition.
    On behalf of Sonoma Raceway, our employees, and the many 
small businesses that would be affected by the EPA's action, I 
strongly support the RPM Act and ask the subcommittee to 
consider the important role that racetracks and motorsports 
play in our economy when reviewing this legislation.
    Thank you again for this opportunity to address the 
subcommittee, and I look forward to taking any questions you 
may have.
    [The prepared statement of Mr. Page follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back. Thank you for your 
testimony.
    And thank you all for being pretty punctual on time. That 
gives us an opportunity to begin with opening statements. I 
recognize myself for 5 minutes.
    Mr. Brisini, I want to--and as quickly as possible, if you 
can, because I want to get a lot of questions out. This cost-
benefit analysis kind of story this bill went through last 
Congress, can you address that, how, in your opinion, the 
benefits are outweighing what may be viewed as, you know, the 
cost of allowing a waiver of some of the Clean Air Act?
    Mr. Brisini. Well, I think what is really important to 
recognize is that you are not losing any of the monetized 
benefits, so there is really only upside by virtue of the SENSE 
Act.
    The SENSE Act contains provisions to ensure that the Cross-
State Air Pollution Rule budget for each State where this would 
happen is not increased. The allocations that would come to 
provide the additional allocation to the bituminous-coal-
refuse-fired plants comes from retired units, units that have 
been retired as long as 5 years and possibly even longer, so 
that no existing plant's allocation is affected.
    The retired plants in Pennsylvania, for example, keep 65 
percent of what they were allocated. Thirty-five percent would 
be allocated to the bituminous coal refuse plants. And in West 
Virginia, the existing plants keep 87 percent of the--the 
retired units keep 87 percent of their allocation. If you were 
to do a complete reallocation, they likely would get nothing.
    So I look at the SENSE Act by virtue of the provisions that 
protect the CSAPR budget, and I look at those situations where 
you will have no regional increase because of that--it is cap 
and trade--you will actually have decreases in SO<INF>2</INF> 
likely, because they can't sell them, they can't trade them, 
they have to be used at the facility. The only facility that 
can get this allocation is a bituminous-coal-refuse-fired plant 
that burns 75 percent coal refuse to ensure that they are 
cleaning up the environment by producing the beneficiary-use 
ash, and then they have to surrender those allowances when they 
retire.
    So there is only upside to the SENSE Act.
    Dr. Bascom. Can I speak a little about the cost?
    Mr. Shimkus. Ma'am, it is my time. So we will recognize 
you----
    Dr. Bascom. OK.
    Mr. Shimkus [continuing]. If someone wants to ask you a 
question.
    Mr. Page, let me ask about the statement of a concern that 
the aftermarket parts used in amateur auto racing might find 
their way into the regular vehicle market. Can you speak to 
that?
    Mr. Page. Sure. Let me make two points.
    There is nothing in what is proposed in the RPM Act that 
allows a modification of cars that are used on the highway----
    Mr. Shimkus. So that would still be against the law.
    Mr. Page. That would still be against the law.
    Mr. Shimkus. OK. Great. Thank you.
    Let me go to Mr. Moore and Mr. Parker. I represent a big, 
rural area, 33 counties. My biggest community is 33,000, and 
then it goes down from there. You are both located in small 
communities, it sounds like. Endicott is 100. And, actually, 50 
employees would be a big employer in my congressional district.
    So, Mr. Moore, can you speak, and then Mr. Parker, in my 
minute left, just briefly, the impact to the local community 
and the importance of the jobs and the tax base that you 
provide in rural America?
    Mr. Moore?
    Mr. Moore. Thank you.
    You know, our business is small, with 50 employees, but 
there are several vendors all over the United States. We have 
dealers, a 400-dealer network that will have retailers, 
installers, that type. And then our community, everybody that 
we employ is local. And we do local banking; everything is done 
locally. We contribute back to the community, and we are just a 
part of that community. And, I mean, the loss of a----
    Mr. Shimkus. Are you one of the major employers in the 
local community?
    Mr. Moore. Semi-major, yes, sir, we are.
    Mr. Shimkus. OK.
    Mr. Parker?
    Mr. Parker. Thank you.
    We are by far the largest employer in our county. For us, 
most of the employees that we attract, we have a very difficult 
time to get them. But adding to our tax base, in addition to 
the millions in wages that we pay, we have over 1,000 acres 
that we pay tax on, millions of dollars of equipment that we 
pay personal property tax on.
    And local vendors depend on us for their businesses as 
well, whether that is welding, mechanics, electrical trades, 
and so forth. Our facility, while we are in the middle of 
nowhere, granted, we provide a lot of jobs, and we have a lot 
of activity at our facility.
    Mr. Shimkus. Great. Thank you very much.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Teitz, can you explain CSAPR's phased-in approach to 
emission allowances, please?
    Ms. Teitz. Sure. Mr. Tonko, could I briefly address just a 
couple points that were just made?
    Mr. Tonko. Sure.
    Ms. Teitz. Would that be--thank you.
    I just wanted to note that Mr. Brisini made the point that 
the SO<INF>2</INF> levels would be held constant under the cap 
under the SENSE Act. And that may well be the intent of the 
bill. However, as it is drafted, that is not clear.
    And the concern is that the language says, in one place, 
that EPA shall hold levels constant, but then in the very next 
section it says that they shall do that by taking allowances 
from other sources for a certain time period, which depends on 
those allowances being available from those sources and is 
limited to that 4-year period that is specified.
    So, if that is the intent of the bill, it certainly could 
be fixed to address that portion of the concern, but that is 
not how it is currently clearly drafted. That would still leave 
the concern about acid gases increasing, but with respect to 
that piece of it, that is the concern about the increased 
SO<INF>2</INF>.
    And then, in terms of the concern about the defeat devices 
that Mr. Shimkus raised, because--again, it is a drafting 
question, and, as members of the committee know, drafting is 
critical. Because it is drafted to turn on what the purpose of 
the device is, you would be allowed to manufacture a defeat 
device that would have the purpose of being installed for 
racing, but, once it is on the market, it could be sold and 
people could use it for whatever purpose, as they have, in 
fact, done.
    And EPA has no practical ability to go after some vehicles 
in the middle of 260 million vehicles that are on the roads 
today. So EPA just wouldn't be able to enforce that in any 
practical matter, without being able to go to the manufacturers 
and say, you can't sell these things.
    So, again, there may be a way to do that, but that is not 
what the result of the bill would be. And we have seen in 
recent settlement cases that, in fact, defeat devices have been 
sold as aftermarket parts recently and have resulted in huge 
quantities of NOx emissions--in one case, NOx emissions 
sufficient to offset recent updates to the Cross-State Rule.
    And I apologize. Going back to your original question, Mr. 
Tonko, the--I am sorry. Could you refresh me?
    Mr. Tonko. Sure. CSAPR's phased-in approach to emission 
allowances, just explaining that phased-in approach, if you 
could.
    Ms. Teitz. That is right.
    So CSAPR has several phases, and it tightens down over 
time, because we want to be--as technology improves and as we 
make reductions, we want to keep tightening those limits down. 
So there are two phases, and the second phase, you know, is 
critical in terms of continuing to make the emissions 
reductions that downwind States need to come into attainment.
    Mr. Tonko. So, under the SENSE Act, would waste coal plants 
continue to receive higher phase-one allowances indefinitely?
    Ms. Teitz. That is right. They would never rachet down.
    Mr. Tonko. So EPA would never be able to strengthen this 
standard even if emissions control technology greatly improves 
or becomes significantly cheaper. Is that correct?
    Ms. Teitz. That is correct. And nor would States be able to 
do that. If they looked around and said, we need more emissions 
reductions and this is the cheapest place to get them, this is 
where we want to get them, they would not be able to do that.
    Mr. Tonko. One of the central principles of the Clean Air 
Act is cooperative federalism. States have the authority to 
choose how to reduce emissions, but the SENSE Act would 
actually override this.
    So, Ms. Teitz, is anything currently preventing States with 
waste coal plants from giving these plants additional 
allowances?
    Ms. Teitz. I am sorry? Repeat the last bit?
    Mr. Tonko. Is anything currently preventing States from----
    Ms. Teitz. Oh. No. At this point, they absolutely have the 
ability to adopt their own plans and give these plants more 
allowances, redistribute them however they wish.
    Mr. Tonko. OK.
    And, Dr. Bascom, can you discuss the health impacts of 
sulfur dioxide pollution that you have seen in your patients or 
in recent medical studies?
    Dr. Bascom. Sure.
    Sulfur dioxide is a highly soluble gas, so it is taken up 
99 percent by the upper respiratory tract. And what that means 
is that it triggers asthma, it is a big actor. People that have 
asthma who are around sulfur dioxide can exercise less before 
they are set off, and they have an increased medication need.
    The other thing about it is that, when it comes out of the 
stack, it can then contribute to particulate air pollution. And 
we have been there before, raising stacks on power plants in 
the Midwest and resulting in long-term transport of particulate 
air pollution to patients in Pennsylvania.
    The idea of taking, I agree, bad coal that is sitting on 
the ground and messing with the streams and all of a sudden 
sending it up into the stack and spreading it out across 
Pennsylvania for my patients, it just seems like a really bad 
idea.
    Mr. Tonko. So you do see a cost to this act.
    Dr. Bascom. Yes. Absolutely.
    Mr. Tonko. Thank you.
    I yield back.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the vice chair of the 
subcommittee, Mr. McKinley from West Virginia, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Mr. Brisini, you tried to describe for the crowd here the 
issue of the mine refuse piles. We have seen them all over West 
Virginia. We have seen them in Pennsylvania and Ohio, where 
those plants are--wherever they are mining coal and power 
plants, those things are located. And there have been--I think, 
for people to understand, sometimes these mine gob piles--as we 
refer to them, gob piles--can catch fire spontaneously and burn 
for some period of time. They are really a problem for us.
    So I admire the efforts here in Congress to try to clean 
those piles up and find a use for them. And when they have been 
able to do this by developing these power plants, these small 
qualified facilities, to use those facilities, we should be 
embracing that, because it is clearly cleaning up our 
environment.
    But yet, in the last few years since--I have been in 
Congress 6 years--I have seen a relentless attack on these 
plants. So I admire Congressman Rothfus for addressing this 
legislation to try to bring some kind of commonsense approach 
to how we take care of this.
    Dr. Bascom. But it is a pollution-shifting----
    Mr. McKinley. But I have----
    Mr. Shimkus. Would the gentlelady suspend?
    The way the committee operates is that we ask questions to 
individuals and then the individuals are then asked to respond 
to our questions. So it is not proper to just--no. So I am sure 
one of my colleagues will get a chance to direct questions.
    The gentleman can continue.
    Mr. McKinley. I want to continue with that. Because of the 
interruption, I lost some time on that.
    But what my issue is with this legislation--and I am a 
cosponsor of the legislation. I know its intention, but I know 
also there are unintended consequences that can happen when you 
go through this legislative process and the rulemaking process 
that is attached to it.
    So what I want to address is the SO<INF>2</INF> allowances 
under CSAPR. To address the SO<INF>2</INF> emissions, we have 
to address CSAPR. But when we address CSAPR, we open up NOx 
gases as well.
    Do you see that it could be interpreted, when we open up or 
look at CSAPR, that NOx gases could be addressed or revisited?
    Mr. Brisini. That is certainly not the intent----
    Mr. McKinley. It is a ``yes'' or a ``no,'' I think, 
hopefully.
    Mr. Brisini. I don't think there is a ``yes'' or ``no.'' I 
think that depends on what somebody else would try to do. Now, 
from the standpoint of this----
    Mr. McKinley. Do you think it is possible that the NOx 
gases could be revisited when----
    Mr. Brisini. I think it is highly unlikely. I can't speak 
in a certainty because I can't control what somebody outside 
our industry would do. This has nothing to do with NOx. This is 
not any interest----
    Mr. McKinley. I understand that.
    Mr. Brisini [continuing]. In NOx.
    Mr. McKinley. Would you have some language or do you have 
language to make sure that tightens up? Because I don't think 
that was the intention.
    Mr. Brisini. We could provide that language, absolutely.
    Mr. McKinley. I don't think their intention was to expand 
it over to NOx gas.
    Mr. Brisini. Absolutely not.
    Mr. McKinley. OK. Thank you on that. And I do hope we can 
continue to clean this up.
    I am also--while we stay with you on this subject, do you 
think that the--because we have been under this attack on these 
facilities. They have been chasing our coal-refuse-to-energy 
plants now for the last number of years. If they would be 
successful, do you have an idea of how many jobs could be lost?
    Mr. Brisini. Well, I think, at this point in time, that you 
have the potential to lose probably a thousand-plus jobs and a 
corresponding percentage of that, somewhere close to $100 
million in earnings to those jobs. But you also lose the 
environmental benefits.
    Now, I think--and I really want to stress this point. The 
SENSE Act is crafted so there won't be any SO<INF>2</INF> 
increase. Now, what is important about the SO<INF>2</INF> 
increase and keeping that level is that all of the benefits--
virtually all of the benefits of the Mercury and Air Toxics 
Standards are there because of sulfur dioxide.
    If you look in the preamble to the regulation and the EPA 
identifies the benefits, it is due to sulfur dioxide, and it is 
as a precursor to fine particulate matter. The only air toxic 
identified in the MATS Rule as a monetized benefit is mercury, 
which is $4 million to $6 million a year. The benefit from 
sulfur dioxide is $36 billion to $89 billion a year, out of a 
total $37 billion to $90 billion benefit.
    Now, because these facilities have already done dispersion 
modeling to verify that they do not cause or contribute, at 
their current emission levels, a violation of the sulfur 
dioxide standard, because they have provisions such that you 
maintain the CSAPR cap, by virtue of the fact that CSAPR and 
MATS are using in the CSAPR States exactly the same reductions 
to justify those regulations, there is no increase in the 
pollutant that provides for the monetized benefits identified 
for both of those rules.
    Mr. Shimkus. The gentleman's time----
    Mr. McKinley. Thank you. I yield back.
    Mr. Shimkus [continuing]. Has expired.
    The Chair now recognizes the gentleman from California, Mr. 
Peters, for 5 minutes.
    Mr. Peters. Thank you so much.
    And thanks to all the witnesses.
    First, I would just observe that one of the things that we 
struggle with is to try to achieve high-qualify air standards 
with a minimum drag on the economy. And I want to give 
attention to both sides. One thing I thought I heard that 
wasn't fair was all the rules are industry-specific, so, of 
course, the requests are pretty industry-specific. I think that 
is not a reason to be critical.
    Mr. Moore, you made the point that, for your product, if we 
don't deal with this, it is possible that some superior 
technologies--you said 90-percent-emissions-cutting 
technology--won't be on the shelves because you can't hit 98 
percent.
    Do you believe that not just your company but the entire 
industry for your product has achieved that 90 percent level?
    Mr. Moore. I will try to answer that as best I can.
    My understanding is the majority of the manufacturers have 
met the Step 1 phase, which for hydronic heaters that is a 90 
percent emission reduction.
    Mr. Peters. Is there a date in the regulation itself for 
meeting Step 1?
    Mr. Moore. In 2015. May of 2015.
    Mr. Peters. So that is behind us, and now----
    Mr. Moore. Correct.
    Mr. Peters [continuing]. We are just talking about the 
second step coming down the road.
    Mr. Moore. Right. So, today, the only thing that I can 
manufacture is the Step 1, which is the 90 percent emissions 
reduction.
    Mr. Peters. Right. I want to just say, I heard your 
testimony. It impressed me, because I think we don't want to 
have the perverse effect of not having better technology on the 
shelves because we couldn't achieve perfection.
    I would be open to some sort of extension. I am not sure 
whether 3 years is the right amount. But I would like to 
indicate to the author of the bill that you made some sense to 
me.
    Mr. Moore. Thank you very much.
    Mr. Peters. Mr. Page, how does California address the issue 
that was raised in terms of enforcement? How do we make sure in 
our State that modified vehicles, vehicles that are modified 
for racing, with poorer performance in terms of air quality are 
not used on the street?
    Mr. Page. I can't get into a lot of detail about 
enforcement techniques. What I can say is that the cars that 
are modified that compete on our track are pretty easy to 
identify. They arrive on trailers. They have been modified with 
roll cages, with slick tires, lots of sponsor decals. If they 
leave the facility and hit the public highways, it is pretty 
easy to identify----
    Mr. Peters. Well, I would just say, some racing, though, is 
advertised as, you know, regular cars. So, you know, you would 
have Acuras racing, and they would look like Acuras. Maybe it 
wouldn't be so easy to identify. Is that right, or no?
    Mr. Page. There are unmodified street cars that race on our 
track. There are rules for every kind of racing. Generally, the 
cars that are modified with high-performance exhaust systems 
are pretty easily identified as racecars.
    Mr. Peters. And often louder.
    Mr. Page. Significantly, yes.
    Mr. Peters. OK.
    Again, I think--I was surprised to hear that California has 
accommodated this, since we are pretty tough on this kind of 
thing. But, again, I will look more into that.
    Mr. Parker, the question I had for you was, the lawsuit 
that invalidated the 2007 rules, presumably that was a lawsuit 
filed by the industry. Is that right?
    Mr. Parker. The lawsuit was actually from Sierra Club.
    Mr. Peters. OK, so Sierra Club's lawsuit. Now, is the 
current lawsuit on the 2015 rules--who has filed that?
    Mr. Parker. Both the environmental as well as our industry.
    Mr. Peters. One of the things that, as a lawyer, I would 
always wonder is whether I could get a stay of enforcement, 
because you have to show likely to have success on the merits 
and then irreparable harm. You have made a pretty decent case 
for irreparable harm. Have you tried to get a stay as part of 
the litigation?
    Mr. Parker. We are working on that avenue right now. Our 
issue is that the clock is ticking for the compliance date, 
which is December of next year.
    Mr. Peters. Yes.
    Mr. Parker. So we are really working on multiple avenues, 
including a stay, to try to ensure that we have time.
    Mr. Peters. Do you have any sense from the court of when 
that stay decision might be issued?
    Mr. Parker. I do not.
    Mr. Peters. Ms. Teitz, do you know the answer to that 
specific question?
    Ms. Teitz. I don't know the answer to that specific 
question. I wasn't actually aware that a stay request had been 
filed with the court.
    Mr. Peters. OK.
    Well, I am sympathetic to you, too, because I think that, 
again, it is tough for businesses to be knocked around without 
having certainty. On the other hand, I would ask you to pursue 
the remedies in court before you come to the legislature. I 
think there is a remedy available in court, it seems to me, to 
deal with this.
    If that were unsuccessful--I am not saying I am not 
sympathic, but I would certainly be more sympathic that you are 
careening toward not knowing what the answer is, and, you know, 
maybe we should step in.
    But I would like to see you--and would love to know if it 
is possible--to tell me the timeline on getting a stay. That 
would make an impression on me.
    Mr. Chairman, I yield back. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    I appreciate the discussion that we are having today and 
all of our panel members for being here.
    You know, our small businesses in America are the backbone 
of our economy. We have known that for a long time. And brick 
manufacturers are a part of those small companies that we are 
talking about, those small businesses. And I think it is a 
shame that the regulations that we are discussing today go 
after their very livelihood.
    Unfortunately, Mr. Parker, you are no stranger to the very 
real economic consequences of heavyhanded Federal regulations. 
You have seen it firsthand. The brick industry has borne the 
brunt of an unpredictable regulatory process, beginning way 
back in the early 2000s.
    And while some of my colleagues believe that the BRICK Act 
sets a concerning precedent, the situation that the brick and 
clay ceramic industries find themselves in today, this MACT on 
MACT situation, is, in itself, very unique.
    So I think we need a bit of pragmatism when we approach 
this situation, not simply give history the option to repeat 
itself. And we need to consider the livelihood of the people 
that will be impacted by EPA's most recent reiteration of the 
BRICK Act.
    Also troubling for me is this regulation essentially caps 
the economic productivity of the clay ceramics industry. While 
the EPA, under the former administration, admits that the 
regulation will not reduce emissions emitted by the industry, 
it decided to set new regulatory standards for it anyway. I 
would hope that my colleagues would appreciate the 
ridiculousness of this current regulatory environment.
    So, Mr. Parker, the EPA essentially assumed that you can 
raise the prices of your bricks to pay for new control 
equipment. Is this really an option? And what type of 
competition does the brick industry face?
    Mr. Parker. Well, I would love to be able to raise prices 
at any time, especially to cover costs that come up. If we 
could raise prices--and this is speaking as a CPA from my prior 
professional career--I would absolutely embrace getting revenue 
wherever I could. So, no, we cannot raise prices to cover, 
whether the control is a scrubber or any other type of device.
    The competition that we are facing right now, our industry 
has really benefited from being isolated, in a way. We have not 
had a lot of foreign competition, especially for traditional 
face brick. It is a very heavy product with low value, and that 
does not lend itself very well to competition from overseas.
    However, that is changing. And we have seen that with the 
tile manufacturers, where European imports decimated a lot of 
the tile manufacturers, including our line of tile that we used 
to make back in the eighties. We sell very, very little tile 
anymore. And we are also starting to see thin brick imports 
from China as well as Europe, which are now competing against 
our product.
    Mr. Johnson. So competition is getting pretty stiff in the 
global economy.
    Mr. Parker. It is more stiff today than it has ever been.
    Mr. Johnson. OK.
    Is it correct to say that you and other brick manufacturers 
have already reduced their emissions substantially and that 
these new standards require further reductions from these 
already reduced levels?
    Mr. Parker. It is. When the 2003 Brick MACT came in, 
compliance was within the 3-year window, so all of the 
companies in our industry came into compliance by 2006. The 
rule was then vacated in 2007.
    Our companies and our industry continued to operate based 
upon operating permits that were issued with those control 
devices that were put in under a rule that was ultimately 
vacated.
    Mr. Johnson. OK. All right. Yes, we talked about that a lot 
over the last several years.
    Can you explain how this MACT-on-MACT approach could result 
in unachievable standards?
    Mr. Parker. Sure.
    When the 2015 MACT was drafted, they took a look at the 
best-performing kilns that were in existence. The control 
devices that were put on those kilns were very effective for 
the kilns at those locations. The EPA drafted the regulation 
looking at the performance of those kilns and used that as 
their baseline for establishing the new MACT. So, essentially, 
we now have a MACT-on-MACT-type situation.
    Mr. Johnson. OK. And if you are forced to implement this 
rule, what is it going to do to employment in your industry?
    Mr. Parker. For our industry, it would be devastating. We 
have companies that put in control devices that spent $1 
million, $2 million, $3 million, $4 million at a location to 
comply with the 2003 Brick MACT that was vacated. With the 
current MACT that is currently in front of our industry, many 
of those control devices are going to have to be torn out to 
put in a higher-performance-type scrubbing system.
    Mr. Johnson. OK.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Johnson. All right. I yield back, Mr. Chair.
    Mr. Shimkus. The Chair recognizes the gentlelady from the 
State of Michigan, Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    The bills before us, in different ways, attempt to delay, 
roll back, or create loopholes in the Clean Air Act for 
multiple industries that would be detrimental to public health, 
I believe. Air pollution, no matter the source, adversely harms 
all of us. This is why it is so critical we protect the 
standards established by the Clean Air Act and continue to 
reduce all forms of harmful pollution.
    So it is important we take a step back and have a real 
conversation about air pollution's direct impacts on public 
health. We must fully understand the real risks and 
consequences of allowing more particle pollution into our 
environment, which you all discussed in your testimony.
    Dr. Bascom, how does pollution affect different age groups 
across our society? And is there a specific demographic most at 
risk with increased air pollution?
    Dr. Bascom. We are most concerned about children because 
they breathe more for their body weight, so they have a higher 
toxicant dose.
    If you think about the wood-burning stove issue, this is a 
very important one for children because they spend a lot of 
their time at home. The wood-burning stove, in a sense, can 
create the wood-burning emissions, like a forest fire, within 
their home.
    In Pennsylvania, where there is radon, people that have 
high particulate burdens in the home get more radon into the 
lungs, and that increases lung cancer risk over a lifetime.
    So children are the people that we are most concerned about 
because of their increased dose and the long trajectory where 
the pollutant can exert its impact.
    Mrs. Dingell. Thank you.
    Dr. Bascom, I am trying to give you your turn now. Many of 
the clean air standards we are discussing here today are 
already long overdue. What are your greatest long-term and 
short-term concerns, as a physician, if industries are granted 
specific exemptions or we continue to delay or circumvent EPA 
Clean Air Act standards moving forward?
    Dr. Bascom. One of my biggest concerns is that the 
technology that is currently available is not being used. I 
think that in the State of Pennsylvania, when it comes to the 
power plants that we talked about, again, I agree that the slag 
coal is bad, we need to get rid of it, but to get rid of it by 
dispersing it into the air is a bad idea.
    People live a long time, and pollutant effects, actually, 
research shows, exert over the generations. So we have to clean 
up now as quickly as possible so that we are not causing these 
long-term burdens.
    Mrs. Dingell. So, as an experienced physician and 
professor, you have seen firsthand the harmful effects of 
pollution on public health caring for patients. What do 
patients tell you regarding air pollution? Are they concerned 
about how more pollution might impact their day-to-day lives or 
quality of life?
    And since you have been anxious to make comments, I am 
going to say to you now: Are there stories you would like to 
share with the committee to help us understand the human side 
of unhealthy air?
    Dr. Bascom. Thank you for the opportunity.
    My patients, when the VW story broke about the cheaters 
that were polluting and making air quality worse, people would 
come in with their asthma attacks, and they were furious. They 
couldn't believe that a company like VW was cheating.
    So I don't think that we have airport sniffing dog 
equivalents for pollution technology on cars. And so I don't 
think we--I think my patients would be furious at the thought 
that pollution was being allowed or that people were being 
allowed to cheat.
    People are also very scared, when they have a chronic lung 
disease, about landing in the hospital and about dying. If they 
have a lung transplant, pollution makes it more likely that 
their lungs will be rejected, their new lung would be rejected.
    The human cost of pollution on people's health and 
livelihoods is huge. If you are sick, you can't work. If you 
are young and you have asthma, that is the most common cause of 
missed schooldays, so you don't learn as well. Air pollutions 
cost. I see it all the time in my patients.
    Mrs. Dingell. So we have 50 seconds left. Are there any 
things that you have heard that you would like to respond to 
directly at this time, or do you have any final message you 
want to leave with members of this committee?
    Dr. Bascom. I think that the health cost is a huge cost for 
people. It is economic to the individual, and it is often 
hidden, that the individuals bear the cost. And please keep 
them in mind as you are doing your deliberations.
    Thank you.
    Mrs. Dingell. Thank you.
    It is not in the public's best interest to pass legislation 
that incentivizes frivolous litigation in an effort to stall or 
avoid compliance. Delaying important air quality standards 
ultimately hurts our qualify of life.
    Nor should we be passing legislation that would make 
exemptions or loopholes that weaken the Clean Air Act, make 
unnecessary delays, create inequities in the marketplace, or 
removes economic incentives to reduce pollution altogether. 
Public health is too important an issue to sacrifice.
    I thank all of the witnesses for being here today.
    I yield back my 5 seconds.
    Mr. Shimkus. The gentlelady is over 5 seconds, but----
    Mrs. Dingell. Oh, I apologize.
    Mr. Shimkus [continuing]. With my diligence, we allowed you 
to finish.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Mr. Shimkus. So the Chair recognizes the gentleman from 
North Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    My question is for Mr. Page, president and general manager 
at Sonoma Raceway.
    A 2005 study found approximately 27,252 North Carolina 
residents were employed in motorsports-related jobs, including 
employees working for suppliers of the equipment used in 
racing. I am certain that the number has gone up in the 10-plus 
years since a full-scale economic impact study was completed by 
economists at my alma mater, UNC-Charlotte.
    The most recent estimate by the Specialty Equipment Market 
Association estimates that the motorsports parts industry 
contributes $1.6 billion a year to the economy. Of course, that 
doesn't even include the financial impact of racing itself.
    I had the great opportunity to visit your facility a number 
of years ago and want to commend you on a wonderful operation. 
It is a terrific fan experience. Your track hosts major NASCAR 
and I believe very shortly will be hosting an IndyCar race. But 
please elaborate on the importance of amateur racing activities 
relevant here to your business.
    Mr. Page. Well, amateur racing is really the foundation of 
what goes on at our track. And there is an enthusiast 
performance automotive community that is on our track using our 
facility day-in, day-out, year-round. And there are programs 
that are for unmodified street cars, but the majority of the 
club racing, which is vintage cars, sports cars, and a variety 
of different clubs that rent our track and promote events, are 
using cars that began as street cars that have been modified. 
They are clearly--you can see them; they arrive on trailers. 
One of our biggest logistical challenges we have at the 
facility is just parking all of the trailers that arrive for a 
major race weekend.
    So these are not cars that are driving in off the street. 
As I mentioned before, they have roll cages, they have slick 
tires, they have sponsored decals on the side. Any of these 
cars that hit the street are very clearly identified as a car 
that shouldn't be out there.
    But that amateur race community is really the foundation of 
what goes on in our facility.
    Mr. Hudson. I appreciate that.
    The California Air Resources Board is famous, and some on 
the subcommittee might say infamous, for adopting extremely 
stringent environmental standards. But, in this case, it is 
fair to say that this board, unlike EPA, has made crystal-clear 
that it has no desire to target vehicles that have been 
modified for use exclusively on private racetracks.
    Would the RPM Act conform Federal policy to the California 
State policy and create more uniformity and certainly for those 
involved in this amateur racing?
    Mr. Page. Yes, it would. The CARB regulations essentially 
mirror what was the policy of EPA for the first 45 years of the 
Clean Air Act, which is that a car that is used exclusively on 
a racetrack can modify its exhaust system. That is the policy 
that is followed by CARB.
    And the intent of this legislation is to simply clarify 
that that has been and always was the intent of the Clean Air 
Act. And it takes a cloud of illegality off of the thousands of 
people that use our facility on a year-round basis, that, based 
on the current interpretation of the law by the EPA, they are 
considered lawbreakers.
    Mr. Hudson. Well, and to that point, I mean, without the 
RPM Act, is it your testimony that there is some lingering 
doubt about whether the EPA may in the future choose to go 
after the owners of vehicles modified solely for competition as 
well as the businesses that serve them?
    Mr. Page. Yes. And that cloud hangs as long as that is the 
stated--regardless of whether they are currently enforcing it, 
that is the stated policy of the EPA, so that all of these 
people who compete on our track, the 75 businesses that work on 
cars at our track, all of those are engaging in an illegal 
activity and that that the EPA simply isn't enforcing it.
    Mr. Hudson. Well, I appreciate your thoughtful responses 
today. I am sure many other racetrack operators share your 
concern.
    And I guess it is obvious, then, you would prefer that this 
law clearly spell out that converting racing modified street 
vehicles is legal under the law rather than rely on the EPA not 
to enforce the law that exists. Is that correct?
    Mr. Page. That is correct.
    Mr. Hudson. Well, thank you very much, sir.
    And, with that, Mr. Chairman, I yield back the balance of 
my time.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman for holding this 
hearing.
    And I want to thank the witnesses. You all make a pretty 
good case, and it is going to be hard, really, with an 
objective viewpoint, to ferret out what the best pathway here 
is, at least with regard to my vote.
    I am going to start out on the coal refuse issue.
    Ms. Teitz, can emissions of the coal--burning coal refuse 
with limestone, can that be scrubbed to high standards, the 
emissions--the----
    Ms. Teitz. Yes. In fact, the coal refuse plants are 
actually--the controlled ones are actually some of the cleanest 
of the plants. And, as Mr. Brisini pointed out in his 
testimony, eight of them were used to help set the MATS 
standards, the technology-based standards.
    So it is clear that these plants do have the technological 
ability to clean up. And, in fact, many of them already have 
scrubbers on; it is more a question of how they are operated, 
how often they are operated, and how much sorbent is used, et 
cetera.
    Mr. McNerney. OK.
    Mr. Brisini, what is the waste product, then, of the 
process? And how is it disposed of, the solid waste?
    Mr. Brisini. When you combust the coal refuse with 
limestone--and I will correct something, in that there is one 
plant that has a post-combustion device. All of the other 
plants rely completely on the combustion of coal refuse with 
limestone and fabric filters, the most effective particulate 
control device there is to achieve the sulfur dioxide 
reductions.
    The difference that you see isn't because they have 
different technologies. It is primarily because of the 
particular vintage of the plant and the particular sulfur of 
the coal refuse. Bituminous coal refuse has higher sulfur than 
anthracite coal refuse, which is exactly why the NSPS includes 
a performance standard as opposed to a single standard for coal 
refuse plants.
    Now, what gets done with the beneficial use ash? And that 
is what is it is Pennsylvania. By regulation, it is called 
``beneficial use ash'' under Chapter 290. So long as it meets a 
number of criteria relating to leachate. And that is tested and 
verified quarterly. That material is beneficially used in the 
reclamation of the sites where the coal refuse was removed and 
also in the reclamation of other mining-affected lands. And 
these are abandoned lands, in many cases, that have no one who 
has any environmental liability.
    And something else that probably should be realized: In the 
re-mining process, by someone taking on the burden of re-mining 
coal refuse, they are accepting all of the burdens of the 
current mining regulations in terms of how it is done and how 
the reclamation of that area gets done.
    Now, in terms of supporting the use, the----
    Mr. McNerney. I am going to reclaim my time here. I like 
your answer, but you are taking way too much of my 5 minutes.
    Ms. Teitz----
    Mr. Brisini. Well, there is too much good story. Sorry.
    Mr. McNerney [continuing]. Will this process cause further 
emissions than other generators, other forms of power 
generation?
    Ms. Teitz. So it depends how--this is the ambiguity in how 
it is drafted. Mr. Brisini has testified that the intent of the 
regulation is to hold the caps constant, but it is not at all 
clear that it actually achieves that in practice. And it 
appears that it allows--overall emissions levels could be 
allowed to go up. I mean, it could be drafted to hold the cap 
constant, but it doesn't achieve that at this time.
    Mr. McNerney. OK.
    Ms. Teitz. In terms of the acid gas standards, in terms of 
MATS, the Mercury and Air Toxics Rule, it would allow increased 
emissions from these coal refuse plants.
    Mr. McNerney. Thank you.
    Professor Bascom, the arguments in favor of weakening or 
delaying the Clean Air Act is that the cost of incremental 
improvements--in other words, improvements over improvements 
that have already been made--are not cost-effective. In other 
words, the cost exceeds the benefit. Could you address that?
    Dr. Bascom. One of the important lessons is that the 
current levels of particulate air pollution continue to exact 
an important health cost and that continuing reductions in 
particulate air pollution will cause important health benefits.
    Furthermore, for people that have chronic respiratory 
conditions, these particulate levels cause tremendous costs in 
terms of suffering and healthcare costs.
    So I think that the public health benefit continues to be--
the arc of the public health benefit is toward reducing human 
suffering and reducing healthcare costs. And that is important 
to keep in mind. We have not solved the problem of air 
pollution, although we have made great strides.
    Mr. McNerney. So, in terms of dollars and cents, the 
dollars saved by not doing the additional pollution controls 
does not exceed the cost of health effects?
    Dr. Bascom. Well, I am not an economist, but the people in 
the EPA who are doing regulation and proposing things work in 
that area, and I would refer you to them.
    Mr. McNerney. All right. Thank you.
    Dr. Bascom. I can tell you about phlegm.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. And I certainly want 
to thank you for holding this hearing today and for the 
invitation extended to Frank Moore to appear before the 
subcommittee to share his perspective.
    Frank is a constituent of mine and is the owner and 
operator of Hardy Manufacturing in Philadelphia, Mississippi. 
And his father-in-law started the company, I believe, in 1976, 
and Frank and his wife bought the company back in 1992. And I 
think he offers a unique perspective, as an engineer, from 
Mississippi State University, I might add, and a small business 
owner, to see how the EPA regulation is affecting him and other 
small businesses.
    And I am very proud to have you with us today, Mr. Moore. 
And I would like to ask you a few questions, if I may, to make 
sure that we are all on the same page here and that we come 
away with an understanding of how this impacts you and many 
others.
    First of all, I think it is important just--you know, of 
course, I have been by your facility. I know what you mean 
there in Philadelphia, Mississippi. Explain to us what your 
company actually means, contributes, or how the local community 
benefits from you being there and employing some 50 people.
    Mr. Moore. Not only do we have the employees, as I was 
saying earlier, there are subcontractors, there are sales 
organizations that are located in Philadelphia. You know, we do 
the local banking. But, you know, vendors are not only all over 
Mississippi, they are all over the country. We buy stainless 
steel and we buy grates from a large area.
    And, you know, I am just one small company. There are close 
to 60 manufacturers in the HPBA organization. And then there 
are thousands of dealers, installers, and retailers that, you 
know, sell these units.
    And, you know, what we are asking today is, we just don't 
have enough time. And we do support the regulations; we just 
didn't want to be regulated out of business.
    Mr. Harper. Right.
    Mr. Moore. And this Step 2 essentially will regulate us out 
of business. And then, you know, without relief, our business 
owners and consumers, you know, will actually lose.
    And, you know, when we change from a 90 to 98 percent, this 
is going to cause the consumer not to be able to change out 
their old high-emitting units. And a good example, in Libby, 
Montana, they had a change-out program there, and they had a 70 
percent improvement in air quality. And we just feel like, by 
selling even the Step 1 units until we can develop our Step 2 
units, that we are improving the environmental and air quality.
    Mr. Harper. Sure. And we appreciate that and what your 
company means to our State.
    When you look at this, I know keeping the product 
affordable for families who have perhaps been pinched by the 
economy is very important. Who are the main consumers of your 
products?
    Mr. Moore. Most of them are farmers. They are rural workers 
that have access to their own firewood. And, you know, when 
they have access to their own firewood, it is not like having 
the high cost of energy. And, you know, energy is unstable when 
people are trying to heat their homes and just trying to make 
ends meet. So being able to use your own firewood is an 
advantage, that they can make ends meet.
    And so we are just trying to continue to make these wood-
burning appliances available to them--and clean wood-burning 
appliances.
    Mr. Harper. And so what you are looking at is just more 
time to continue the development to get to that figure.
    Mr. Moore. Exactly. We are just asking for 3 more years. We 
are hoping that we--but we just got to get to that point. And 
we are hoping we will get there.
    Mr. Harper. So if you don't get to that point and you don't 
get that additional time, what do you think the impact on 
employment in your company would be?
    Mr. Moore. It would be over.
    Mr. Harper. OK.
    Mr. Moore. I mean, you know, the only thing we manufacture 
is an outdoor wood-burning furnace. And I am not the only 
manufacturer or dealer or installer or retailer who will be 
affected. I mean, this affects the whole wood-burning industry 
across the United States.
    Mr. Harper. Well, let's talk about this in the seconds that 
we have left. If you don't get that relief and if the new wood 
heaters becomes much more expensive, could this have an 
environmental impact that is negative or consequences that that 
would be negative if consumers decide to keep using older wood 
heaters or find other heating options?
    Mr. Moore. Absolutely. I mean, you know, if they don't have 
anything to buy or if they can't afford what is available to 
them, then what they are going to do is to repair their old 
units, someway, somehow, in their shops. They are going to 
repair them, so then you have all those high-emitting units 
that are still out there.
    We are trying to give them an option of having cleaner-
burning units that they can replace their old higher-emitting 
units with.
    Mr. Harper. Thank you, Mr. Moore.
    With that, I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes Mr. Cardenas for 5 minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to get some question and answers 
with our witnesses here today.
    I used to be a small business owner before I became a full-
time politician. I was a State-licensed business owner as well. 
So I appreciate right-sized regulations that balance public 
good, short-term and long-term, with economic cause and effect, 
short-term and long-term, as well.
    I will take back us about a little bit. There was a time 
when humankind settled everything with a club, as in, you know, 
swinging a club. That is too simple of a way of dealing with 
things, and we hopefully, in this committee, can prove that we 
have evolved by, you know, tackling our everyday things that we 
have to do with a thoughtful, science-based, and sophisticated 
manner. I think that we have the capability of doing that.
    And I think some of these bills in their form right now are 
just a little too simplistic, and they are ignoring something, 
such as these bills are delaying EPA rules, and they are 
hurting--in my opinion, hurting companies by creating 
unpredictable changes in our standards.
    My first question to Mr. Page is, I understand that 
California already has a similar regulation in place that 
mirrors this bill, which is the Recognizing the Protection of 
Motorsports Act of 2017. Can you talk about the regulations in 
California that are reflective of this issue?
    Mr. Page. Yes.
    The California Air Resources Board and California law 
allows for the conversion of a vehicle that was originally 
produced as a street vehicle to become a racecar, including the 
modification of the exhaust system. And, as I mentioned, that 
was the interpretation that the EPA adopted during the first 45 
years of the existence of the Clean Air Act.
    What this bill does is simply clarifies, for the people in 
our industry, that that intent is, in fact, what the Clean Air 
Act intends and that that would make it congruent with the 
policy of the California Air Resources Board.
    Mr. Cardenas. Thank you.
    While California is certainly a leader on environmental 
issues, we do have a problem with individuals altering their 
vehicles to use them on the streets. The limit requiring 
transport on flatbeds is a good step in preventing bad actors 
from driving the altered vehicles on the street as well.
    Ms. Teitz, I ask the same question of you. If you have 
knowledge of the California regulations, do you have the sense 
of how many bad actors there are in the State of California and 
how that number affects emissions?
    Ms. Teitz. I don't have that information, Congressman.
    But there is a key point here that I think we keep missing 
in this discussion. The concern with the bill is not whether or 
not so much racing conversion should be allowed. The issue is 
whether the bill would remove EPA's authority to enforce 
against defeat devices that are sold to overcome motor vehicle 
emissions controls, as a general matter.
    And the way the bill is currently drafted, it is much 
broader than just allowing for the kind of thing that 
California allows for. Because it goes to the purpose or the 
intent, any manufacturer could sell any device that is a kit to 
convert a car and get rid of the motor vehicle emissions 
controls or to put in a computer tweak which they sell to 
override the controls, and, as long as they say it is for the 
purpose of racing, EPA couldn't enforce.
    Well, the practical reality is, once it is sold, California 
has a way to check and make sure that those vehicles are only 
used for racing, because they require inspection and 
maintenance programs; many other areas of the country do not 
have that safeguard. And EPA certainly isn't going out and 
checking individual vehicles' tailpipes.
    Mr. Cardenas. Certainly not.
    Ms. Teitz. So, as it is drafted, it could be incredibly 
damaging.
    And just to provide an example of that, in recent years, 
there have been three big consent agreements where EPA enforced 
against manufacturers of defeat devices and they agreed that 
they were manufacturing defeat devices that were designed to 
overcome air pollution emissions controls; they paid penalties. 
And in just one of those cases, in 2015, EPA estimated the 
emissions impact of those defeat devices on the road is over 
71,000 tons of NOx.
    For comparison, EPA just updated or relatively recently 
updated the Cross-State Rule to reduce NOx emissions from power 
plants across 22-something States to help Eastern States attain 
the ozone standards, and that was 80,000 tons of NOx. So this 
almost wipes out the entire benefit of EPA rulemaking, the 
defeat devices sold by one unscrupulous manufacturer--who is no 
longer in business, but other ones could arrive.
    So EPA has to retain that authority. It is absolutely 
critical. Or we are going to have, sort of, you know, do-it-
yourself VW scandals.
    Mr. Shimkus. The gentleman's time----
    Mr. Cardenas. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 years.
    Mr. Carter. Thank you, Mr. Chairman.
    I am juggling subcommittee meetings, and my notes are 
upstairs, so I am going to go by memory.
    Mr. Page, I am going to start with you. First of all, I 
represent south Georgia. We are NASCAR, we are racetracks, we 
are all about it. And one of the things that I am concerned 
with is how EPA has come and has essentially taken and 
incorporated you into something that originally you weren't 
intended to be included into.
    Mr. Page. Well, that is the point I have been trying to 
make.
    And I would actually like to address Ms. Teitz's point----
    Mr. Carter. Please do, but very quickly.
    Mr. Page [continuing]. Because I think it helps to 
illustrate our case.
    We fully support the EPA's aggressive enforcement of 
standards for cars that are driven on the road. And when 
manufacturers like the one she has identified are stopped from 
selling these kinds of parts to cars that are driven on the 
street, then we are fully supportive of it.
    This simply clarifies that cars that are exclusively used 
on the track are not subject to that requirement. And I think 
this is an example that the EPA can enforce it.
    Mr. Carter. Absolutely. And this impacts you. It impacts 
the small speedways in my district, of which I have very many, 
and they add a lot to the economy. And something like this 
could have a devastating effect on them, and does have a 
devastating effect on them.
    And I have a piece of legislation right now dealing with 
tractor trailers, that the interpretation of the engine on the 
truck is impacting the tractor trailers now. That is why we 
need to codify it. And that is what my legislation does to keep 
the overreach of EPA from impacting these companies like that.
    But thank you, Mr. Page. I appreciate that.
    Mr. Page. Thank you.
    Mr. Carter. Mr. Brisini, I want to talk to you for a second 
because I am very interested in what you are talking about with 
the coal refuse and what you are doing with that.
    I want to ask you, what are your byproducts from that? What 
are your waste products that you get out of that as a result of 
what you do?
    Mr. Brisini. Well, the vast majority of the material is not 
determined to be waste. It is actually a beneficial-use 
material under the--for example, in Pennsylvania, we have 
regulations----
    Mr. Carter. I am not talking about your initial product. I 
am talking about after you are finished. Do you have coal ash?
    Mr. Brisini. No. It all becomes part of this beneficial-use 
ash. It actually is a material that has the ash, it has the 
unreacted limestone, it has pozzolanic characteristics, which 
is a technical way of saying it acts like cement. So when it 
goes back to the areas for reclamation, it would be mixed with 
whatever is left behind, and then it sets basically into 
cement.
    Mr. Carter. And so you don't have any residual material at 
all after your process?
    Mr. Brisini. Pretty much no. And the Department of 
Environmental Protection just produced a presentation--in fact, 
in our testimony, there is a link to that presentation--that 
identifies the reclamation of areas with beneficial-use ash. 
And it shows the reduced loadings from the area, and it shows 
the leachate. And it shows that this is absolutely the only 
permanent way to address the coal refuse pile issues in terms 
of fire or water pollution----
    Mr. Carter. OK. The reason I am going here and the reason I 
am asking this question is, in my district, they are trying to 
increase the amount of coal ash that is being shipped down 
there and put into the fills there, into the waste fills there. 
And I am wondering if the coal ash--you could be using this?
    Mr. Brisini. The ash from those areas, we don't use that. 
We produce our own. I can assure you, none of the ash from a 
coal-refuse-to-energy facility would go to Georgia, because it 
is too valuable in its use in West Virginia and Pennsylvania in 
reclaiming abandoned mine lands.
    Understand that these coal refuse piles, unless they are 
burning and creating a safety and risk hazard from the 
emissions or there is subsidence of the pile--and these are 
right on the edge of towns. People's backyards back right up 
into a coal refuse pile. Unless you have an imminent danger, 
these are called a low-priority pile. None of the abandoned 
mine land----
    Mr. Carter. OK. I understand what you are saying, but my 
interest lies with coal ash, in particular. Because, you know, 
we have some fills down there that they are wanting to dump 
that into. And, obviously, there are environmental concerns 
about it getting into the water table, about it polluting our 
environment down there, and that is of major concern to us.
    Mr. Brisini. I understand that, and it should be a major 
concern to everybody. And that is why in my previous life with 
a previous company we had lined landfills for all of our 
disposal sites.
    But, now, in terms of the SENSE Act, it is a very different 
kind of material than fly ash. In fact, you wouldn't see much 
bottom ash from power plants because they use that to create 
under-drain systems and other efforts in their own disposal 
sites.
    Mr. Shimkus. The gentleman's----
    Mr. Brisini. But our area, we have----
    Mr. Carter. I may follow up with some questions for you, if 
that is OK.
    Mr. Brisini. Sure. We would be happy to----
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman can talk to me too. We will talk 
about coal ash and fly ash and all those good things.
    The Chair recognizes the gentleman from California, Mr. 
Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you very much, Mr. Chairman.
    As you all know, I am a physician, emergency medicine 
doctor, public health expert. So I understand very clearly the 
importance of the Clean Air Act and to having clear air to 
breathe, the direct relation from pollutants in the air to 
increase in asthma, COPD exacerbations, as well as morbidities 
that can--I have treated them in the emergency department. They 
come in gasping for air because of some worsening conditions in 
the air and the haze and pollutants and allergens and all that 
other stuff.
    So that is why it is so very important that we monitor and 
get the data needed to determine what are things that pollute 
the air and that we also inform the public for behavioral 
changes and help protect the common good, which is clean air.
    So I want to talk about the RPM. And, of course, the 
biggest concern here are those that want racecars and, you 
know, change their emissions and drive them in the streets. My 
understanding is that this RPM bill will clearly define that if 
you modify the car, then that car is to be used for racing, and 
that if they want to drive that car in the street, that they 
still have to comply with current emissions.
    So, Mr. Page, in terms of the owners of these street cars 
that modify their cars, is your sense--do they have a problem 
with giving up their license plate for street driving?
    Mr. Page. The intent of this bill is to focus purely on 
cars that are used on the track. So that is the intent. It 
would certainly seem like a reasonable stipulation that someone 
should give up their license plate if they are modifying the 
exhaust.
    Mr. Ruiz. In your opinion, would they be willing to?
    Mr. Page. I can't speak for the individual drivers, but, as 
a representative of the industry, it certainly seems like a 
reasonable stipulation.
    Mr. Ruiz. Yes. And is this bill for if a car then wants to 
be a racecar--right? Is it for cars that only are for racecars?
    Mr. Page. Correct.
    Mr. Ruiz. Correct.
    Mr. Page. This----
    Mr. Ruiz. So you are not encouraging dual use----
    Mr. Page. No.
    Mr. Ruiz [continuing]. With this bill, correct?
    Mr. Page. This is for cars that are used 100 percent on a 
racetrack.
    Mr. Ruiz. A hundred percent.
    Mr. Page. There is nothing to remove the restrictions for 
cars that are used on the public roads.
    Mr. Ruiz. OK. So the cars on public roads still have to 
comply with all the emissions----
    Mr. Page. Absolutely.
    Mr. Ruiz [continuing]. Tests and everything.
    Mr. Page. Absolutely.
    Mr. Ruiz. So my next question then, Ms. Teitz, is, you 
know, how do you regulate--or how does the EPA regulate 
emissions for any car? And is there any special things that you 
do for cars that are used for racing?
    Ms. Teitz. That is such a good question, Congressman.
    I think we are really having a divide here between what 
everybody thinks would make sense, which is having provisions 
that apply to cars that are actually only used for racing, 
versus the way the bill is actually written, which is, 
unfortunately, far broader.
    And it really is much less of an issue of car by car, 
because the EPA has never, to my knowledge, and won't be going 
out car-by-car enforcing against, you know, you didn't race 
this car or you didn't race this car. The issue is whether----
    Mr. Ruiz. Well, let me ask you the same question 
differently, because I only have a minute left, mind you.
    Currently, there is illegal street car racing. It happens, 
you know? They zoom at, you know, 2:00 in the morning, you 
know, in some rural area. How do we enforce that those cars are 
compliant and that that doesn't happen?
    Ms. Teitz. California, places that have vehicle emissions 
inspection maintenance programs can enforce that. Other States 
that don't have that don't have any practical way to enforce 
that most of the time.
    The key here is that what EPA is really concerned about is 
not the individual cars. They are concerned about manufacturers 
that are selling in bulk, like 80,000 units or 100,000 units, 
of defeat devices over the internet to people to put on their 
cars and then they drive them. And there is absolutely no 
provision in the bill to turn in your license. There is no 
provision in the bill to stop people from driving once they 
have done that.
    The bill's language turns on the purpose. If the purpose of 
the manufacturer is that it be used for racing, then it is fine 
to sell it. And if the individuals then do something entirely 
different with it, they are totally free to do that under this 
bill. And that is the problem here.
    Mr. Ruiz. Well, the manufacturers could sell to anybody, 
correct?
    Ms. Teitz. That is right.
    Mr. Ruiz. So, really, the onus is on the drivers of the 
car.
    Ms. Teitz. But there is no enforcement against that.
    So the only way EPA has historically been able to enforce 
this, which they have enforced, is when people are--when you 
have manufacturers of these devices that make it cheap and 
easy--I mean, if someone wants to do it themselves, there is no 
way we can stop that.
    But when you sell in bulk 100,000 units of a defeat device, 
as recently happened, you know, EPA can go after that 
manufacturer and say, you are enabling people to break the law, 
and that is illegal. They can do that under the current Clean 
Air Act. Under this bill, I don't think they could enforce 
that.
    Mr. Ruiz. I have more questions.
    Mr. Shimkus. Your time has expired.
    Mr. Ruiz. I know.
    Mr. Shimkus. We appreciate your attendance and your focus 
on this issue.
    All time has expired. Seeing no further Members wishing to 
ask questions for the first panel, I would like to--first of 
all, I want to say this was a very good hearing, and appreciate 
your participation. There were good questions, a good dialogue.
    And for those who are supporters of these bills, I think 
the testimony of those who are opposed might give us an idea of 
how we might be able to look at that legislative language and 
try to get a little bit closer, and I would encourage that to 
happen.
    I would like to thank you for being here today.
    Before we conclude, I would like to ask unanimous consent 
to submit the following documents for the record.
    One is a letter from the Hearth, Patio & Barbecue 
Association to leaders of the committee regarding H.R. 453; a 
letter from the Special Equipment Marketing Association and 
other organizations to leaders of the committee regarding H.R. 
350; a letter from the Motor and Equipment Manufacturers 
Association to committee leaders regarding H.R. 350; a letter 
from the Western Pennsylvania Coalition for Abandoned Mine 
Reclamation to Congressman Rothfus regarding H.R. 1119, the 
SENSE Act; a letter from the Eastern Pennsylvania Coalition for 
Abandoned Mine Reclamation to Congressman Rothfus regarding 
H.R. 1119, the SENSE Act; testimony from Davis Henry, president 
of Henry Brick; statement for the record from Administrator 
Scott Pruitt; statement for the record from the U.S. 
Representative Keith Rothfus of Pennsylvania.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I think there are some additional letters 
from the minority.
    Mr. Tonko. Mr. Chair, we ask unanimous consent that these 
also be included in the record, please.
    Mr. Shimkus. The National Association of Clean Air 
Agencies. This is the American Council for an Energy-Efficient 
Economy; International Council on Clean Transportation. And it 
is a--written comments of the Manufacturers of Emission 
Controls Association on the U.S. EPA's agency's notice--da-da, 
da-da, da-da. You have given it to us.
    Northeast States for Coordinated Air Use Management; and 
two letters dated September 12th from the Center for Biological 
Diversity, Earthjustice, Environment America, League of 
Conservation Voters, League of Women Voters of the United 
States, Natural Resources Defense Council, and Sierra Club; two 
letters from the same--oh, there is more on this one. Center 
for Biological Diversity, Earthjustice, Environment America, 
Environmental Defense Fund, Gasp, Incorporated, Green Latinos, 
Hip Hop Caucus--I still don't know what hip-hop is, so--League 
of Conservation Voters, the League of Women Voters for the 
United States, National Parks Conservation Association, Natural 
Resources Defense Council, and the Sierra Club.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. Thank you very much.
    Mr. Shimkus. Pursuant to committee rules, I remind Members 
that they have 10 business days to submit additional questions 
for the record. And I ask that witnesses submit their responses 
within 10 business days upon receipt of the questions, if you 
can.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
